<html>
<title> - A REVIEW OF THE PROFESSIONAL BOXING INDUSTRY</title>
<body><pre>[Senate Hearing 107-1090]
[From the U.S. Government Printing Office]


                                                       S. Hrg. 107-1090
 
A REVIEW OF THE PROFESSIONAL BOXING INDUSTRY--IS FURTHER REFORM NEEDED?

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 23, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation







                 U.S. GOVERNMENT PRINTING OFFICE

89-033                 WASHINGTON : 2004
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866)512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  MAX CLELAND, Georgia
GEORGE ALLEN, Virginia               BARBARA BOXER, California
                                     JOHN EDWARDS, North Carolina
                                     JEAN CARNAHAN, Missouri
                  Mark Buse, Republican Staff Director
                Ann Choiniere Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 23, 2001.....................................     1
Statement of Senator Dorgan......................................    42
Statement of Senator McCain......................................     1
    Prepared statement...........................................     2

                               Witnesses

English, Patrick, Attorney, Dines and English....................    14
    Prepared statement...........................................    17
Goossen, Dan, President, America Presents Boxing, LLC............    10
    Prepared statement...........................................    12
Hendrick, Kirk, Former Chief Counsel to Nevada Athletic 
  Commission, Jones Vargas.......................................    25
    Prepared statement...........................................    27
Homansky, Dr. Edwin ``Flip'', Chief of Staff, Valley Hospital 
  Medical Center.................................................     2
Jones, Jr., Roy, Professional Boxer, c/o the Jones House.........    33
    Prepared statement...........................................    42
Sirb, Greg, President, Association of Boxing Commissions.........     5
    Prepared statement...........................................     7


A REVIEW OF THE PROFESSIONAL BOXING INDUSTRY--IS FURTHER REFORM NEEDED?

                              ----------                              


                        WEDNESDAY, MAY 23, 2001

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m., room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. I am pleased to convene this morning's 
hearing on the professional boxing industry. As you may know, I 
have been an avid fan of boxing for most of my life, but I am 
concerned about some of its participants. Boxing is an 
immensely difficult activity that tests the physical skills and 
mental limits of its competitors.
    It is an honorable sport that should be admired by its 
fans, but in recent years boxing has been sullied by 
misconduct. Professional boxing is the only major sport in the 
United States that does not have a strong centralized 
association or league to establish and enforce uniform rules 
and practices for its participants. There is no widely 
established union of boxers, no collective body of promoters or 
managers, and no consistent level of state regulation among the 
state athletic commissions.
    For the past 6 years, this Committee has taken steps to 
reform professional boxing by passing two pieces of 
legislation, the Professional Boxing Safety Act of 1996 and the 
Muhammad Ali Boxing Reform Act of 2000, both of which have been 
enacted into law.
    The 1996 Act established a minimum level of health and 
safety requirements to protect the welfare of the athletes who 
sustain the sport, while the primary focus of the Muhammad Ali 
Act was to protect boxers from sometimes exploitive, oppressive 
and unethical business practices of promoters, managers and 
sanctioning organizations. The Muhammad Ali Act also provided 
assistance to state boxing commissions to provide more 
effective public oversight of the sport.
    Today's hearing will focus on the effects, if any, these 
federal laws have had on the industry, and whether additional 
federal, state and private sector reforms are needed to further 
improve the sport.
    The witnesses before the Committee today represent members 
of the boxing industry who care deeply about the current state 
and the future of the game and I thank them for being here.
    Our first witness will be Dr. Edwin Flip Homansky, Chief of 
Staff of the Valley Hospital Medical Center, a face familiar to 
most boxing fans at certain points in a boxing match. Mr. Greg 
Sirb, President of the Association of Boxing Commissions, Mr. 
Dan Goossen, President of America Presents, and Mr. Pat 
English, attorney, and Mr. Kirk Hendrick, who is also attorney 
and former chief counsel to the Nevada Athletic commission.
    Dr. Homansky, we are privileged to have you before the 
Committee again. We thank you for being here and we thank you 
for the wonderful work you have done for many years on behalf 
of the health of these young athletes. Please proceed.
    [The prepared statement of Senator McCain follows:]

   Prepared Statement of Hon. John McCain, U.S. Senator from Arizona
    I am pleased to convene this morning's hearing to review the 
professional boxing industry. As you may know, I have been an avid fan 
of the sport of boxing for most of my life, but I am very concerned--a 
concern shared by many of the sport's leaders--regarding the often 
unscrupulous behavior of some of its participants. Boxing is an 
immensely difficult activity that tests the physical skill and mental 
limits of its competitors. It is an honorable sport that should be 
admired by its fans, but in recent years boxing has been sullied by 
misconduct.
    Professional boxing is the only major sport in the United States 
that does not have a strong, centralized association or league to 
establish and enforce uniform rules and practices for its participants. 
There is no widely-established union of boxers, no collective body of 
promoters or managers, and no consistent level of state regulation 
among the state athletic commissions.
    For the past 6 years, this Committee has taken steps to reform 
professional boxing by passing two pieces of legislation, the 
Professional Boxing Safety Act of 1996 and the Muhammad Ali Boxing 
Reform Act of 2000, both of which have been enacted into law. The 1996 
Act established a minimum level of health and safety requirements to 
protect the welfare of the athletes who sustain the sport, while the 
primary focus of the Muhammad Ali Act was to protect boxers from the 
sometimes exploitive, oppressive and unethical business practices of 
promoters, managers, and sanctioning organizations. The Muhammad Ali 
Act also provided assistance to state boxing commissions to provide 
more effective public oversight of the sport.
    Today's hearing will focus on the effects, if any, these federal 
laws have had on the industry, and whether additional federal, state, 
and private sector reforms are needed to further improve the sport.
    The witnesses before the Committee today represent members of the 
boxing industry who care deeply about the current state and future of 
the game, and I thank them for being here.

           STATEMENT OF DR. EDWIN ``FLIP'' HOMANSKY, 
         CHIEF OF STAFF, VALLEY HOSPITAL MEDICAL CENTER

    Dr. Homansky. Thank you, Senator McCain. This is a tough 
sport, both for the participants and the regulators. Has the 
recent federal legislation helped? Absolutely. Are there still 
problems? Almost as many problems as there are current lawsuits 
over the heavyweight championship.
    The Chairman. Not that many.
    Dr. Homansky. The biggest accomplishment that you have 
achieved is simply letting the boxing establishment know that 
someone is watching them, that they are no longer able to 
operate in an ethical vacuum. This is an enormous achievement.
    What we are trying to do, Senator McCain, my own two 
senators who appreciate the sport very much, Senator Reid and 
Senator Ensign, is to provide a level playing field so that the 
participants are treated fairly and ethically and to make an 
inherently dangerous sport as safe as possible.
    Who should be in charge? An entity that doesn't trample on 
states' rights, that's only goal is fairness and safety, that 
doesn't become another bureaucratic mess, that is responsive to 
the changing needs of the participants, that can be funded in a 
reasonable matter and that has medical and legal references. 
Basically what I am saying is the state commission.
    What I would like to address with my time is some issues 
that I feel are very important medically. And the first is a 
central repository for medical tests and a mechanism to be able 
to track a fighter's career longitudinally with exams. A test 
is so much more beneficial when you can compare it to the past. 
No one in this room is old enough to really have had a number 
of EKGs, but your dad has had an EKG, and you know that EKG is 
just information set in time, and it is only helpful to compare 
it to past EKGs, and future EKGs. We need a database and we 
need to be able to follow these fighters medically.
    We must begin prospective studies of the boxers. We must 
know more about how the rigors of boxing affect these fighters 
both acutely and chronically. The medical data bank is a good 
start. I propose funding these studies by taking 10 percent of 
all sanctioning fees of championship fights in America. I 
believe that would amount to about 4 to 5 hundred thousand 
dollars.
    Another issue. There needs to be more supervision of the 
gyms and trainers. The gym is where these kids spend most of 
their time. This is where the real injuries occur, not in the 
ring, but in the gym. We have to supervise that.
    My major concern in boxing right now is the high risk 
boxer. We all know that there are boxers who should no longer 
be in the ring absorbing punishment. They are either past their 
prime or their once wonderful skills have deteriorated to the 
point----
    The Chairman. Like Julio Cesar Chavez fighting Kostya 
Tszyu.
    Dr. Homansky. Exactly. And I will talk about that more 
later. Why does it happen, Senator McCain? Many promoters see 
the fighter as nothing more than a dollar sign. Not Mr. 
Goossen. Not Main Events, but it is done. The fighters 
themselves forget the pain that they did endure. They look in 
the mirror, they say what they once were, not what they are 
now. The networks know that a big name brings viewers, even if 
the former champion is nothing more than a shell of himself. 
The exception to the rule may be able to still compete, but at 
what price?
    A license to box is a privilege. The state commissions need 
to look at it that way. And when a fighter comes he needs to 
prove to us that he can fight, not the other way around. That 
we need to show that he can't. That we have to go through these 
legal battles.
    I have given you in your written information a list of my 
feelings of the high-risk boxer. These are fighters that need 
to be looked at closer, not that they can't fight, but maybe 
when need to look very closely at their career. It is my 
personal feeling and I voiced this before, that no one over the 
age of 42 should be licensed to box in the United States of 
America.
    The answer to this issue has been tests. Let's get more 
tests, any test, the most expensive tests. The problem is tests 
don't always give you the answer. Just because someone has a 
normal MRI doesn't mean that they have not been hurt in the 
ring and may develop problems later. That is too simple. The 
MRIs and the CAT scans tell us of injuries that have already 
occurred. We must find ways to get these kids out of the ring 
before they develop problems. And a normal MRI is not the whole 
answer.
    Another proposal is an arbitration panel overseen by the 
ABC that would have a physician, a regulator, and a state AG 
that if there is a question of a Julio Cesar Chavez, that no, 
they can't go to another state and just fight, but they go to 
this arbitration board and their promoter, who wants to make 
money off of these kids, has to pay for that, but then this 
arbitration panel can look at how they were in the gym, how 
their last fights are, if their skills are deteriorated and 
then tell us, can they go back in the ring without more danger. 
Again, this is an inherently dangerous sport. We can't take all 
the danger out, but we have got to try.
    All right. The Boxing Reform Act. I am not sure that boxing 
is reformed yet. The ratings boggle my mind. I see championship 
fights in which both kids lost their last fight. I see the IBF, 
where some of the officials admit to taking bribes to get their 
kids ready.
    I see situations where I love the sport and I understand 
the sport, but I don't understand what's going on, and I'll 
give you one example. And I am not picking on anyone, but Mr. 
Mike Tyson. He is rated number one by one organization. He is 
rated 7th in the WBA. He is rated 8th in the IBF. He is not 
rated in the WBO. The only reason I bring this up to you is 
that now he is mandatory. The champion has to fight him or lose 
his belt.
    I am not here to debate if Mr. Tyson is the right person, 
but I am here to say that the champions shouldn't be in that 
position. And a suggestion that I make is that the mandatory 
comes out of the top three challengers, not the number one 
challenger.
    I believe that the biggest problem legally is disclosure. 
The fighter gets a purse. You already know how many pieces of 
that purse are taken from him. What we need to look at next is 
the money that is involved that he doesn't know about. The 
money that was there for that fight that the fighter never even 
knows before he has to pay his 30 percent.
    The sanctioning bodies do serve a useful role. This is a 
world sport and it is very difficult to follow fighters in 
other countries. We need some international structure. Some of 
the international organizations like the WBC do a good job, but 
for the beneficial role to continue, they must play by 
reasonable rules.
    I am just going to give you a minute of what we have done 
in Nevada. AB 446 is new legislation that will allow the Nevada 
State Athletic Commission to register or in other words license 
all sanctioning bodies and the TV networks. It has never been 
done before. We have also significantly broadened our 
definition of manager so that we can license so-called 
advisors. We are currently publishing a 150-page book, Ringside 
and Training Principles that will be given to all of our 
licensed fighters and assist them in their career. This will 
cover everything from how to pick a mouthpiece to what to do 
before signing a contract.
    We have contributions from some of the foremost trainers, 
nutritionists, match makers, lawyers and former boxers in the 
sport. Current and past drug usage will be covered, along with 
where to go for help. This will be available June 23rd in 
Spanish and English. My last current is----
    The Chairman. This right here, right?
    Dr. Homansky. Yes, sir. That is not the completed copy, but 
that is the beginning. The state commissions are integral to 
this sport. They best understand how the sport should function 
in their state and how it should be regulated. Their role needs 
to be strengthened, not decreased. There is a role for 
oversight and I hope that the government helps the ABC in that 
oversight rule. But the state commissions are very viable and 
are improving under your guidance. Thank you.
    The Chairman. Thank you, Dr. Homansky. I hope that is true. 
Mr. Sirb, welcome back. We are always pleased to see you and 
thank you for your many contributions and leadership in the 
sport of boxing.

              STATEMENT OF GREG SIRB, PRESIDENT, 
               ASSOCIATION OF BOXING COMMISSIONS

    Mr. Sirb. I appreciate it, thank you, Senator McCain. My 
name is Greg Sirb. For the past 4 years I have been President 
of the Association of Boxing Commissions. For the past 11 
years, I served as the Executive Director of the Pennsylvania 
Athletic commission.
    The ABC is a registered nonprofit group comprised of 53 
members which are all the state commissions and now many of the 
Indian tribal commissions that are formed. Let me give you some 
statistics for the year 2000 that we just put together. 822 
professional boxing events last year. It was actually a 
decrease of 2.5 percent from 1999. California again staged the 
most events with 102, followed by Nevada, 64, Texas, 56, 
Pennsylvania, 45, and Florida, 40.
    Today, with the federal ID card, we now have registered, a 
little over 8,400 professional boxers in this country. And it 
should be noted that in the year 2000, the United States 
continued to be the leader in boxing with 63 of 153 world title 
fights, over 41 percent held within our borders.
    Let's talk about the current status. In 1996, when we 
passed with great enthusiasm the Professional Boxing Safety 
Act, two big improvements were made, especially at the 
commission level. The first was the federal identification 
card. This card, which is partly comprised of a six-digit 
number on this card was the first time that state commissions 
could accurately track a boxer from state to state on his win-
loss records and his medical problems. This card was 
established by the ABC at no cost to state commissions.
    The second major part was the national suspension list, 
which is now on the Internet at www.sportsnetwork.com. This was 
an integral part in ensuring that no boxer could fight while 
under medical suspension. The ABC developed this, put it up on 
the Internet and it is probably one of the most widely used 
sites in professional boxing.
    These two steps that were implemented through that act 
helped improve the safety and quality in this country 
unbelievably from what it was just 2 or 3 years ago.
    The Ali Act of 2000 brought what I consider three 
significant changes. First, the disclosures which Dr. Homansky 
briefly touched upon. It is the first time that the boxers have 
a general understanding of what types of revenues and 
expenditures he is looking at. As a part of this, the ABC, 
together with NAAG, National Association of Attorney Generals, 
put together a boxer's bill of rights which I have copies of 
that tell the boxer what his rights are under this disclosure 
and what questions he can ask about disclosures.
    The second provision was about coercive contracts. I think 
with the coercive contracts it finally gave the boxers and 
their managers a little bit more of an open market on who they 
may want to deal with. The third is the ranking of boxers. I 
agree with Dr. Homansky, that needs to be improved but at least 
by forcing the boxing organizations to disclose who is on the 
rankings Committee, what their criteria is and letting the 
boxers have a say in that criteria, which the Ali Act lets 
them.
    Many boxers I know firsthand have written organizations 
demanding why their rankings have changed. As further 
provisions in this act, the ABC developed general ranking 
criteria which, copies are available in my testimony, that we 
have asked the sanction bodies to follow.
    Trouble spots. Obviously number one is the enforcement of 
the acts. We have had some problems. Giving the enforcement 
over to the state attorney generals has not worked out as well 
as we have thought.
    Second, there definitely needs to be a more uniform process 
for handling bout agreements, boxer-manager and boxer-promoter 
contracts. My feeling and strong feeling is that these 
contracts need to be on one universal form. They need to have 
binding arbitration attached to them, and they need to be in 
one central location.
    In the Rahman situation, if we had one central location of 
the forms where the contracts were in front of one group, the 
situation could have been handled within days just like they do 
at major league baseball, just like they do in football. It 
does not have to go to court time and time again so that our 
sport is stopped until we find out who the real champion is.
    The third is sanctioning bodies need to be licensed. They 
can no longer control or police their own activities. There 
needs to be some agreement among the sanctioning bodies that 
are forced upon them of general ranking practices and general 
business practices.
    Fourth, there needs to be put some sanction on those states 
and Indian tribal commissions that have not kept up to speed, 
antiquated rules and regulations that are enforced in some 
states that put the boxer in financial or worse, health and 
safety dangers.
    And fifth, there needs to be an agreement on the type of 
medicals. We have talked about the medical data bank in the 
past. It needs to be done, but there needs to be a system 
available to pay for it. If we are to say all boxers need an 
eye exam or need an EKG, there needs to be a corresponding 
system that says who pays for that.
    If you are going to say the boxer pays for that, you are 
going to take away over 80 percent of the fighters in this 
country. There needs to be a system for funding that.
    And last, there needs to be a formation of some type of 
pension system for retired boxers. It is something we have 
talked about time and time again but in a sport where millions 
are made in one night, there must be a share of the wealth from 
all the sort of called club fighters that have helped that 
million dollar fighter get to that level.
    Overall, boxing has improved with the federal laws, no 
doubt about it. We need to still have more uniformity and more 
professionalism. My feeling is that the ABC can accomplish that 
with some further stringent rules and regulations working with 
the state commissions. I thank you for your time.
    The Chairman. Thank you. Mr. Goossen. Welcome.
    [The prepared statement of Mr. Sirb follows:]

              Prepared Statement of Greg Sirb, President, 
                   Association of Boxing Commissions
    Good Morning:
    My name is Greg Sirb. For the past 4 years I have been the 
President of the Association of Boxing Commissions--the ABC and for the 
past 11 years I have been the Executive Director of the Pennsylvania 
State Athletic Commission. The ABC is a registered non-profit group 
comprised of some (53) members including all state boxing commissions 
in the U.S. as well as many of the Indian Tribal Boxing Commissions 
that have been formed.
    For this past year (2000) there were 822 professional boxing events 
held in the U.S., which represents a decrease of (2.5 percent) over the 
previous year. The state of California staged the most boxing events 
with (102) followed by Nevada (64), Texas (56), Pennsylvania (45) and 
Florida with (40). Today there are over 8,400 registered boxers in the 
U.S. It should be noted that in the year 2000 the U.S. continued to be 
the leader in professional boxing activity with 63 of the 153 world 
title bouts (41 percent) held within our borders.
    My testimony before you today will focus on two parts: first, the 
status of the game today especially as it pertains to the two federal 
laws, and second, the changes that still need to be made.
    Current Status--with the passage of the Professional Boxer's Safety 
Act in 1996 two major regulatory changes were made that most definitely 
improved the sport of boxing. First was the introduction of the federal 
identification card, which is a 6-digit number that identifies each 
individual boxer and is used to accurately track a boxer's win/loss 
record. This I.D. Card has helped boxing commissions to essentially 
eliminate the practice of boxers trying to use various names or aliases 
as well as trying to falsify their boxing records. Because of this, 
accurate record keeping has greatly improved. With all boxing records 
now being sent to Fight Fax, which is the central registry for all 
records in the United States, boxing commissions now have up-to-date 
and accurate information on all boxers so as to help the commissions 
make a more informed decision on whether to allow a particular match-
up.
    The second major part of the Professional Boxer's Safety Act was 
the creation of the National Suspension List, (which is at 
www.sportsnetwork.com) which ensures that boxers competing are not on 
any type of medical suspensions. By putting this information online all 
boxing commissions, as well as promoters, managers and the boxers 
themselves, can easily determine if a particular boxer is on suspension 
and the reason why.
    These two steps, which have been implemented through the ABC, have 
no doubt improved the safety and quality of professional boxing in this 
country.
    With the passage of the Muhammad Ali Act in 2000 three more 
significant changes were implemented. First the mandatory disclosures 
that are now required for promoters and sanctioning organizations. 
These disclosures have for the first time given the boxers a general 
understanding of what type of revenues are being generated from the 
fights and what expenditures are being deducted from their purses. 
These disclosures have greatly improved the financial education of 
professional boxers and have acted as sort of a ``sunshine law'' on the 
sometimes-confusing world of revenues and expenditures surrounding 
championship fights.
    Second, the provisions concerning coercive contracts. These 
provisions have entitled boxers and their managers to have a more open 
market when dealing with certain promoters.
    Third, are the provisions dealing with the rankings of boxers. By 
forcing the boxing organizations to disclose their ranking criteria and 
forcing them to respond to boxers who have questions about these 
criteria and their own rankings the boxers and the boxing public have 
become better informed on how this whole ranking process works. There 
have been a number of boxers who have taken advantage of these 
provisions so as to get a better understanding of how they are being 
ranked and why their respective rankings have changed. As per these 
provisions the ABC has developed the objective criteria for how the 
rankings should be handled. Copies of these criteria are included in my 
testimony.
    Improvements/Trouble Spots that need to be addressed--First, the 
enforcement of the two federal laws needs to be improved. Without 
proper enforcement these laws are useless. The current system of 
letting the various State Attorney Generals handle these issues has not 
been working. Second, there needs to be a more uniformed process for 
the handling of bout agreements, and boxer/manager and boxer/promoter 
contracts. These contracts should be on one universally accepted form 
that must include the provision for forced arbitration so as to settle 
any contractual disputes in a much more timely and cost effective 
manner. The contracts must also be on file in one central location so 
that all parties can readily attain information on a particular boxer's 
contractual situation. The current system of how commissions compile 
and enforce these contracts is a mess! Third, sanctioning bodies need 
to be licensed through a national group.
    It is only through this process that sanctioning bodies would be 
forced to agree to some generally accept business and ranking 
principles. Fourth, there needs to be sanctions put on those state or 
tribal boxing commissions that do not up-hold the federal laws or that 
have antiquated rules/regulations that put the boxer in either physical 
or financial danger. Such things as requiring that an ambulance along 
with paramedics and proper equipment be at ring-side at all times, that 
the promoter is bonded in a certain amount to ensure all boxers and 
other bills, including insurance coverage, are paid in a timely 
fashion, that all boxers agree to and sign a bout contract before each 
bout, and that procedures are developed to ensure that these bout 
contracts are up-held by both the promoter and the boxer (so that 
boxers cannot sign a bout agreement and then not show up) and that all 
payments agreed upon on these bout contracts are made.
    Fifth, there needs to be some agreement on the type of medicals 
that are needed for licensure of professional boxers and a system to 
pay for them. The current medical requirements vary greatly from state 
to state as does who is responsible for the payment of these exams--
such as (EKGs, EEGs, Eye Exams). And lastly the formation of some type 
of pension system for retired boxers. In a sport where millions are 
made in one night there needs to be some system set-up so that the 
wealth is shared, to some degree, with all boxers and not just the 
privileged few.
    Overall I feel that boxing in general has improved as a result of 
the federal intervention. But there is still no question that 
professional boxing, especially at the commission level, is still 
lacking in three basic areas, Uniformity, Professionalism and 
Consistency.
    I would like to thank the Members of this Committee for the 
opportunity to testify before you this morning and would be willing to 
answer any and all questions that you may have.
Association of Boxing Commissions Criteria for the Ratings of 
        Professional Boxers
    *As mandated by federal law--the Muhammad Ali Act-Section-11, the 
ABC has approved the following ratings criteria that all sanctioning 
organizations shall follow:

    1)  Ratings must be solely based on win/loss records, level of 
competition and activity. Records of any top (10) rated boxer must be 
verified.
    2)  No boxer can be rated in more than one division.
    3)  For a Boxer to be rated in the top (10) and to compete for a 
world title he/she must have competed in at least (2) 10-round bouts. 
To stay in the top (10) he/she:

        a)  must compete at least once during a 12-month period from 
        the time the boxer gets rated and also must compete within (6) 
        pounds of his/her rated weight and;
        b)  must have competed against another top (15) rated boxer 
        within a (18)month period from the time the boxer gets rated.

    A boxer who does not meet this level of competition shall not 
retain his/her rating. Exceptions can only be made for injuries.

    4)  If a top (10) rated boxer losses to an un-rated boxer then the 
rated boxer should be lowered at least one position in the ratings. The 
un-rated boxer should be considered for a rating somewhere in the top 
(15).
    5)  If two boxers, are rated in the top (10) and compete against 
each other then the following shall apply:

        a)  If the lower ranked boxer wins then this boxer shall be 
        elevated in the ratings and;
        b)  The higher rated boxer shall be lowered in the ratings.

    **The above criteria shall take effect immediately**
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                   STATEMENT OF DAN GOOSSEN, 
            PRESIDENT, AMERICA PRESENTS BOXING, LLC

    Mr. Goossen. Senator, thank you again for inviting me. I 
was here, I think a little over two years ago, and I know it 
was an uphill battle getting that Muhammad Ali Act into law. 
And I know the struggles that you endured doing that, but it is 
what brings me back here again, two years later, because we 
realize that you are our only hope. A little over 20 years ago 
and many gray hairs prior, I got into the boxing business and I 
made a vow back then. I really didn't have as good an 
understanding obviously as I do today, but I made a commitment 
to myself that I felt I was an honorable person getting into 
this business. And I said I never wanted this business to 
change me. And I didn't really give much thought back then to 
changing the business.
    Through the years, I realize that just not having the 
business change me wasn't good enough. I had to make sure that 
I could do whatever I could to help change this business, and 
promoters alone, state commissions, boxers, it can't be done 
individually. It has got to be done with someone that takes the 
bull by the horns, someone like yourself, Senator, and I 
applaud you for that. And that is why I sit here today. I am 
going to probably please some people. Rather than read my 
testimony, I would like to make sure this gets into the record.
    The Chairman. It will be made part of the record.
    Mr. Goossen. Thank you, Senator, and really to go into all 
the different details that Greg just went into and Dr. 
Homansky, and I am sure Pat English and Kirk Hendrick are going 
to have some valuable information for us to improve this 
business. I think rather than reading my testimony, what I'd 
like to do is support you in making our business one that 
people can look at and be proud of, fans, boxers, promoters.
    I mean, right now being a promoter, Senator, as you know, I 
am glad to see that Dr. Homansky didn't include me on the 
negative of the promoters, but it is something that I am 
constantly living down. I certainly don't mind having that on 
the shoulders, but on the other hand, I'd like to make a 
promoter a word that is someone that is an honest businessman, 
someone that is out there to escalate the fighter's earnings, 
be doing it ethically and doing it honorably and also making a 
living myself, because I am in this business to make a living. 
And I know it can be done.
    The Ali Act is a great second phase of your plan. We need, 
as Greg mentioned and Dr. Homansky mentioned, we need an 
authority figure that oversees all the boxing, that is able to 
dole out penalties for people that violate your law. Without 
that in place, as effective as the Ali Act has become for us as 
an industry, until we can curb the illegalities that are 
constantly in front of us and we point to the recent situation 
with Rahman and Lewis, one of the biggest events that could 
happen in our industry, and it is being dragged down again. I 
am part of the problem, okay, but I have got nowhere else to 
go.
    The problem I have is I have got an organization, the IBF 
organization, that are ignoring their rules and regulations, 
and the only vehicle I have got to overcome them ignoring the 
rules and regulations is going into a court of law. I don't 
want to go in a court of law. I have got attorneys on staff. It 
is a very litigious business, and that is one of the downfalls 
that we have, Senator. We have got to take it out of the court 
system.
    How do we overcome it? We overcome it by having a national 
commissioner, a commission of unquestionable character, 
integrity. A panel of three, four, five men, women, people that 
we can rely on in making sure the organizations, the promoters, 
the boxers, the managers, whoever they are, live up to the 
standards that you have been pushing for all these years.
    We need binding arbitration. I heard, I think, both 
witnesses right now mention that. We need binding arbitration. 
We need the systems in place that we have in the other sports 
industries where there is very little civil action and all done 
in-house, and I feel that every aspect of what your drive is, 
and I know you have got a busy schedule and for you to take the 
time to watch over our business, I want to make sure that we 
accomplish the goals that you have got out there that are our 
goals sitting here.and we need to get this industry where if 
someone violates one of--the Ali Act or any other violation 
that we have, state level, contract level, that there is a 
commissioner that overseas it, keeps it in-house, punishes that 
person, because without punishment, Senator, as you know, we 
can use the court systems to our advantage for being unethical.
    Whatever you need from our end, any type of input, anybody 
on my staff is available for, and again, Senator, I applaud you 
and it is an honor to be here and I know that with your 
insistence, our industry is going to change and it is going to 
change for the better. Thank you very much.
    [The prepared statement of Mr. Goossen follows:]

             Prepared Statement of Dan Goossen, President, 
                      America Presents Boxing, LLC
    Good morning and thank you for inviting me to participate in these 
necessary efforts to make changes in the way our industry conducts its 
affairs. My name is Dan Goossen and I am President of America Presents. 
We promote in excess of 40 events a year Worldwide. I have been 
involved in boxing for over 20 years and was the only Promoter serving 
on the NAAG Boxing Task Force which formulated recommendations 
ultimately incorporated within the Muhammad Ali Boxing Reform Act.
    I had the honor of speaking before this Committee approximately 2 
years ago. Since that time, under the guidance and leadership of 
Senator McCain and your Committee, the Muhammad Ali Boxing Reform Act 
was enacted into law. The principal stated purposes of the Ali Act are:

    (a)  to protect the rights of professional boxers by preventing 
exploitive, oppressive and unethical business practices;
    (b)  to assist State Boxing Commissions in their efforts to provide 
more effective public oversight; and
    (c)  to promote honorable competition in professional boxing and 
enhance the overall integrity of the industry.

    I am here today to offer my thoughts on certain aspects of the Act 
and, more importantly, recommendations responsive to accomplishing the 
overall stated purposes of the Ali Act. We should all understand that 
the Act and its implementation is a work in progress, a law which will 
evolve over time.
    My objective today is not to get very specific in these 
discussions. Our company would be pleased to submit supplemental 
documentation addressing specific provisions of the Ali Act and 
suggestions to best accomplish the stated purposes. What I will do 
before this Committee today is to outline examples whereby some form of 
intervention appears necessary to ensure that our industry regains the 
necessary public confidence, as well as briefly discuss certain gains 
that the Ali Act has accomplished since its inception.
    The requirement for each professional boxer to have a federal 
identification card in all jurisdictions permitting the various Boxing 
Commissions to act in a reciprocal manner to cross-reference fight 
records, health considerations and other important criteria pertaining 
to the boxer has been a tremendous asset to the industry. The awareness 
of the requirements to comply with the Act has also enhanced honorable 
competition in boxing.
    Along with these accomplishments, we strongly support a form of 
National Commission that will have at its helm an individual or 
individuals of unquestionable integrity, character and knowledge of the 
boxing industry. Specifically, as part of this National Commission, we 
would support binding arbitration whereby massive paperwork and 
clouding of the issues can be minimized permitting a knowledgeable 
authoritative body to address specific relevant issues as opposed to 
ancillary and sometimes irrelevant factors.
    The goal of preventing coercive contracts, conflicts of interests 
and other areas outlined in the Ali Act can be enforced with a National 
Commission overseeing compliance. In the absence of a national 
governing commission, the legislation is adversely affecting promoters 
that have acted properly, but seemingly not impacting those promoters 
with the substantial financial wherewithal to act first, and deal with 
the legal consequences secondarily. The recent activity in the 
Heavyweight Division is potentially a circumstance whereby ``deeper 
pockets'' and the legal system are being utilized as a sword in lieu of 
honorable and ethical business practices.
    The Ali Act addresses ``coercive contracts,'' and limits the 
timeframe in which the promoter of a boxer can receive so-called 
``options'' on an opponent challenging such promoter's boxer. Simply 
stated, the Ali Act prohibits the granting of options to the promoter 
of an opponent extending beyond one year. This provision is 
circumvented by certain promoters simply not offering a deserving 
opportunity to a boxer that the promoter does not have under a 
promotional agreement. By further example, promoters have attempted to 
include in its own agreements language whereby a boxer is, in essence, 
waiving any such coercive tactics!! Moreover, there are boxers that are 
required to extend the term of their promotional agreement every time 
the boxer steps into the ring, despite the existence of a promotional 
agreement with a stated expiration date with his promoter. It is a 
regular practice among certain promoters with the financial wherewithal 
to withstand the scrutiny and potential legal consequences.
    Another area specifically addressed in the Ali Act are conflicts of 
interest and the need for a firewall between promoters and managers. I 
want to be the first to say that a family relationship alone should not 
create a conflict of interest, but the manner in which it is 
implemented and the existence of separate financial arrangements 
between such family members, which are not disclosed to the boxer 
certainly may create a conflict of interest and the Act should have a 
remedy short of having to proceed through the judicial system in a 
costly and time prohibitive manner.
     In conjunction with certain of the intentions of the Ali Act, the 
promoter also needs his protection/rights upheld by the boxer pursuant 
to their Agreement. A boxer may refuse to participate in a bout unless 
he receives, what he rightfully considers, to be fair market value. In 
certain instances, however, such financial requests are not based upon 
the economic reality of the particular event and as a result promoters 
are faced with unreasonable financial requests or refusals to accept 
bouts by boxers. Such consequences create potentially legal 
considerations whereby a boxer may assert that the promoter has failed 
to provide agreed upon bout opportunities of which, once again, the 
only recourse is the judicial system. An example once again is the 
recent activity in the Heavyweight Division whereby a boxer tried to 
leave a promoter two years ago at the behest of another promoter, 
substantial dollars were expended to prevent such unlawful acts and 
that case is still ongoing, and now similar circumstances exist today 
with the same parties.
    If there is one area that this Committee, in our opinion, should 
emphasize as a priority is to ensure the purposes of the Ali Act are 
being enforced through the establishment of a National Commission. Our 
industry is litigious by nature, and the manner in which litigation is 
used to the detriment of ethical business practices must be addressed. 
Any legislation proposed or enacted by this Committee without some sort 
of dispute resolution system is easily thwarted. While litigation is 
present in every industry, it is much less existent in other major 
sport industries. Litigation in the boxing industry has become a ``free 
for all'' where deep pockets and boxer sympathies seem to prevail, to 
the exclusion of valid agreements. This is where federal legislation is 
needed to establish a National Commission to foster good and ethical 
business practices. Nothing else will work. In one fell swoop, this 
Committee would put all licensees, promoters and boxers on equal 
footing. No promoter should have a legal disadvantage based on not 
having ``deep pockets,'' and no boxer should hold an edge based upon 
perceived sympathies irrelevant to the merits of the case at hand.
    A National Commission with the proper authority would immediately 
take boxing out of the courtroom and all licensees would be required to 
abide by the letter of the law and established and enforceable rules 
and regulations of such National Commission, or suffer the consequences 
for violations.
    Furthermore, the leadership values of a Marc Ratner, the current 
Executive Director of the Nevada Athletic Commission and uniformly 
accepted as a person of unquestionable integrity, knowledge and 
character, would be a tremendous choice to head up a National 
Commission. This would be the single most significant change this 
Committee could do to bring boxing into the 21st century. This would 
create an equal playing field and one that would not tolerate 
violations inconsistent with the purposes of the Act.
    We request that your Committee immediately seek implementing 
changes necessary to once again reestablish the public trust in our 
sport and that the promoters, as well as everyone else associated with 
the sport, be responsible and accountable for their actions in a 
uniform and consistent manner whereby the deceptive and coercive 
practices by some are reprimanded from the violative practices and that 
the free market system that applies to other business, not only the 
sports industry, can be applied to the boxing industry.
    I thank you once again for your time and honor of speaking before 
this Committee.

    The Chairman. Thank you. Thank you very much. Mr. English, 
welcome.

            STATEMENT OF PATRICK ENGLISH, ATTORNEY, 
                       DINES AND ENGLISH

    Mr. English. Good morning, Senator McCain. In 1998, I 
testified before this Committee and my testimony then began as 
follows: ``Imagine a major professional sport where the rules 
change as the participants cross state lines. Imagine a 
professional sport where contracts valid in one state are 
invalid in another. Imagine a professional sport where a team 
owner can be banned by one state's regulatory agencies and have 
multiple allegations of fraud against him, some alleging fraud 
against his players and yet still be permitted to do business 
without the slightest effort to investigate by the regulatory 
bodies of other states where the fraud was alleged to have 
occurred.
    It is obvious that a professional sport cannot be run that 
way. And this is precisely the way boxing is being run.'' That 
is what I wrote and said in 1998.
    Without the slightest doubt, the Muhammad Ali Act has 
improved some of the abuses in boxing. The anti-coercive 
provisions of the Act are extremely important. The prohibitions 
of conflict of interest between managers and promoters is also 
extremely important. The requirement for a published criteria 
for ratings and ratings changes is clearly very important.
    The Chairman. But it hasn't seemed to have had much effect.
    Mr. English. Parenthetically my testimony was going to note 
that, unfortunately, the requirement for criteria did not 
include a requirement that the criteria be rationale and the 
criteria of at least one of the ratings organizations, in my 
opinion, is wholly irrational. So there is clearly still a 
problem here.
    I happened to be present when the ABC discussed the 
recommended criteria. There was vigorous debate at the ABC. I 
would personally have liked to have seen the ABC adopt a 
stronger criteria which was in fact proposed. Obviously there 
is a political process there, as well as here, and compromises 
were reached.
    Clearly the health and safety facets of the act and its 
predecessor have enhanced the safety of boxers tremendously. 
For actual rules of title bouts, there is now uniformity. 
However, certain problems identified in 1998 still remain. 
Generally the states do not have either the resources or the 
willingness to investigate wrongdoing.
    As an example, there was recently testimony in a criminal 
trial over bribery for rankings and this was what was referred 
to by Dr. Homansky earlier.
    Promoters who engaged in wrongdoing but who assisted the 
government in the prosecution were punished by very substantial 
fines, as they should have been if improper actions were 
authorized by their promotion companies.
    However, promoters and managers about whom testimony was 
given that there were bribes, but who stonewalled, remained 
completely unscathed and uninvestigated, at least as far as I 
am aware of.
    Now, I would be the last to suggest the presumption of 
innocence should not apply. However, where there is actual 
testimony as to bribes and even tapes, videotapes of money 
being distributed, does it make any sense at all to punish 
those who cooperated with the United States government and not 
even to investigate those against whom there is evidence but 
who have stonewalled. I would suspect that there is no logic to 
that. I would submit, rather, there is no logic to that.
    Despite recommendations for uniformity by the National 
Association of Attorneys general Task Force on Boxing upon 
which I served as an advisory committee member, along with Flip 
Homansky (he was the medical expert), along with Dan Goossen, 
Kirk Hendricks served on that Committee as the Deputy Attorney 
General, the business regulation of contracts is extremely 
inconsistent with contracts remaining valid under law and 
regulation in some states, but not others. So a contract that 
might be perfectly valid in New Jersey may not be valid under 
the laws of Nevada or New York, and vice versa.
    Failure to obtain licensure commensurate with what one's 
actual functions are is a problem. Persons who are either 
promoters or managers do not license themselves as such. They 
call themselves bookers. They call themselves match makers. 
They don't call themselves by what they are. That was a problem 
that was addressed also by the National Association of Attorney 
Generals' Task Force, but the recommendations have not been 
followed yet. Lawlessness in the contractual aspects of the 
sport is as egregious as I have seen in 20 years. Contracts----
    The Chairman. Example?
    Mr. English. Well, there is an example. I am going to use 
two examples. One is not something that is in the press. It is 
not something that many people care about.
    There is a manager that had a contract with a boxer. That 
manager went to a hearing in New Jersey before the Commission, 
it happened to be a New Jersey boxer. I was not representing 
him in that hearing, so I had no interest.
    The hearing was held. The boxer presented his case. The 
manager presented his case and a formal ruling was issued 
holding the managerial intact. The boxer then went to fight in 
another state and while the managerial portion of the purse was 
held, it was not turned over to the manager because of a 
difference in procedure between in this case New Jersey and 
another state. They simply couldn't agree on how to get the 
purse to the manager.
    Then the boxer went to fight in a third state, New York. 
And in that state, the Commission ruled that the ruling of the 
New Jersey commission was insufficient. The manager would have 
to go to court. Now, this is not one of the more prominent 
managers, although he is a regular manager, well-known in the 
sport. He simply doesn't have the wherewithal to go to court in 
every single state in which a boxer may fight. Clearly, members 
of the ABC ought to give full faith and credit to the rulings 
in such matters of other members.
    To highlight a more public dispute, we have reached the 
point where a prominent promoter brings a suitcase or some 
allegations say duffle bag of cash to induce a boxer who 
appears to be under contract to breach that contract. I have 
submitted to you, to the Committee a sworn statement by the 
current heavyweight champion about a matter that occurred 
before he became a heavyweight champion.
    He testified that at various times a promoter gave him 
$25,000 in cash and later after he signed certain contracts, 
$10,000 in cash to breach the contract. This is a sworn 
statement by the current heavyweight champion of the world.
    Well, apparently, the cost of that gentleman's soul 
increased by 50 fold because rather than $10,000, the cash 
recently reported to have been slipped to him by the same 
promoter who caused the first breach was $500,000.
    I don't know how we solve that. The suggestion has been 
made, and I have heard it, that we arbitrate. Well, I have been 
involved in arbitrations and frankly, it may be a good thing, 
but sometimes these arbitrations are as complex, I must tell 
folks, as the court proceedings. Sometimes the court 
proceedings are actually quicker than the arbitrations.
    I do not have a solution to utter lawlessness. I do not 
have a solution to amorality or immorality. The only solution 
that I can think of is when there is clear interference with 
the contract, commissions take action, which they have been 
loathe to do.
    There are some very good people involved in the regulation 
of this sport. I specifically know Greg Sirb, with whom I have 
collaborated for many years in attempting to come forth with 
some recommendations to you at various times, to Flip Homansky, 
who was the premiere ring physician in the United States who 
cares desperately and deeply about the health and safety of 
boxers and now has transferred that knowledge to be a member of 
the Nevada commission, to Marc Ratner of the Nevada Athletic 
Commission, who I know has liaised with you constantly.
    We attended, along with Dan Goossen, Kirk Hendrick and 
others a seminar in Newark about a year ago, and obviously the 
same questions that you are asking came up at that, what do we 
need to do, how do we get a strong centralized authority?
    At that seminar, the suggestion was made, and I repeat it 
today, that the ABC, that an enabling act be passed by Congress 
which would enable the ABC, which despite what we would like to 
think is really a very weak organization, to have much more 
authority than it has now, to effectively become a national 
commission.
    It is states-based, which may be a problem in terms of the 
competing states' interests. But it is an authority with good 
leadership and if that leadership continues in the vein that it 
has for the last many years between Mr. Ratner, Mr. Sirb and 
others, I am sure it can provide leadership without the 
necessarily difficulties inherent in a bill that I have just 
recently seen,
    I know that has been introduced by you and I respect that, 
but I really suspect that the executive branch is not 
necessarily the best organ of government to oversee boxing.
    The Chairman. That was, I believe you are referring to 
Senator Harry Reid's legislation.
    Mr. English. Yes, I am. I thought that you co-sponsored it, 
but perhaps not.
    The Chairman. No. I did. Go ahead, please.
    Mr. English. Last time I testified, I came forth with a 
whole series of solutions. And a lot of them were, various 
ones, adopted in the Muhammad Ali Act. This time I am here to 
answer your questions. With the exception of what I have just 
said, I have no grand solutions at the moment.
    [The prepared statement of Mr. English follows.]

   Prepared Statement of Patrick English, Attorney, Dines and English
    In 1998 I testified before this Committee. My testimony began as 
follows:

         Imagine a major professional sport where the ruling change as 
        the participants cross state lines. Imagine a professional 
        sport where contracts valid in one state are invalid in 
        another. Imagine a major professional sport where a team owner 
        can be banned by one state's regulatory authority, can have 
        multiple allegations of actual fraud against him (some alleging 
        fraud against his players) and yet still be permitted to do 
        business without the slightest effort to investigate by 
        regulations in states where the fraud is alleged to have 
        occurred.

         It is obvious that a professional sport cannot be run that 
        way--and this is precisely the way boxing is, in fact, run.

    Without the slightest doubt, the Muhammad Ali Act has improved some 
of the abuses in boxing. The anti-coercive provisions of the Act are 
extremely important. The prohibitions of conflict of interest between 
managers and promoters is extremely important. The requirement for a 
published criteria for ratings and ratings changes is clearly very 
important. I note that, unfortunately, the requirement for criteria did 
not include a requirement that the criteria be rational, and the 
criteria of at least one of the ratings organizations is wholly 
irrational). Clearly the health and safety facets of the Act, and its 
predecessors, have enhanced the safety of boxers tremendously. For 
actual bout rules for title bouts there is uniformity.
    Certain problems identified in 1998 still remain, however. 
Generally the states do not have either the resources or the 
willingness to investigate wrongdoing. As an example, there was 
recently testimony in a criminal trial of overt bribery for rankings. 
Promoters who engaged in wrongdoing but who assisted the government in 
the prosecution were punished by very substantial fine--as they should 
have been if improper actions were authorized by the promotion company. 
However promoters and managers about whom testimony was given that 
there were bribes emerged completely unscathed--and uninvestigated. I 
would be the last to suggest that the presumption of innocence should 
not apply. However, where there is testimony as to bribes, and even 
tapes of money distributed, does it make any sense at all to punish the 
cooperative parties and to not even investigate those against whom 
there is evidence but who have stonewalled?
    Despite recommendation for uniformity by the National Association 
of Attorney General Task Force on Boxing (upon which I served as an 
advisory committee member) the business regulation of contracts is 
extremely inconsistent, with contracts being valid under the law and 
regulations of some states but not of others.
    Failure to obtain licenses commensurate with what one's actual 
functions is a problem. Person who are either promoters or managers do 
not license themselves as such. Instead they go by the rubric of 
``matchmaker.''
    Lawlessness in the contractual aspects of the sport is as egregious 
as I have seen in 20 years. Contracts--legitimate arm's length 
contracts--means nothing. Allow me to give what I consider to be a 
particularly egregious example--one which has not made headlines. A 
boxer sought to break a managerial contract. He had no grounds, but at 
the request of the parties the Executive Director of the New Jersey 
Athletic Control Board (which had jurisdiction over the contract), held 
a full hearing. Both sides were permitted to state their cases in full. 
He then issued a ruling, holding the contract to be valid.
    One would think that would be the end of it--but it wasn't. The 
boxer then fought in a different state, which did hold the manager's 
share of the purse, but would not turn it over to him. Instead it tried 
to pay over the manager's share to the New Jersey Athletic Control 
Board, which has no mechanism to accept it. The money remains 
undistributed to the manager. The boxer then fought in yet another 
state; that state declined to honor the New Jersey ruling at all.
    The situation is, obviously, ludicrous. Full faith and credit 
should be given when a due process hearing has been given and resulted 
in a determination.
    I have deliberately chosen an example of contractual lawlessness 
which is not prominently displayed in the press. It is, unfortunately, 
all too typical.
    To highlight a more public dispute, we have reached the point where 
a prominent promoter brings a suitcase full of cash--or was it a duffel 
bag--to induce a boxer who appears to be under contract to breach that 
contract. I enclose a sworn statement by the current Heavyweight 
Champion outlining how he was induced by Ten Thousand Dollars 
($10,000.00) in cash to breach a contract prior to his becoming the 
Heavyweight Champion. Apparently the cost of his soul increased by 
fiftyfold, because the cash recently reportedly slipped to him by the 
very same promoter who induced the first breach was Five Hundred 
Thousand Dollars ($500,000.00).
    In my 1998 testimony I offered a series of suggestions some were 
ultimately incorporated into the Muhammad Ali Act. However, I confess 
that I do not have a solution to the utter contractual lawlessness 
which exists. I am not sure that there can be a legislative solution. 
My purpose in this regard is simply to report what is one prevalent 
problem in the boxing industry.
                                 ______
                                 
Sworn Statement of Hasim Rahman
    SWORN STATEMENT of HASIM RAHMAN, held at the offices of Solovay, 
Edlin & Eiseman, Esqs., 845 Third Avenue, New York, New York, on 
September 25, 1998, at 3:20 p.m., before a Notary Public of the State 
of New York.
    Hasim Rahman, having been first duly sworn before a Notary Public 
of the State of New York, was examined and testified as follows:
Examination by Mr. Edlin:
    Question. Please state your name for the record.
    Answer. Hasim Rahman.

    Question. Mr. Rahman, my name is Richard Edlin, as you know. We 
have met before. I represent Cedric Kushner Promotions.
    I have got a couple of questions for you just to establish certain 
facts as it relates to you and conversations and communications that 
you have had with Don King, okay?
    Answer. Okay.

    Question. Did there come a time in or around April of this year 
when you received phone calls from Don King?
    Answer. Yes, April, May.

    Question. Would you describe for me, please, those phone calls and 
what Mr. King said to you in those phone calls?
    Answer. Well, basically he said he would like to have meetings with 
me concerning my career and he would get further into detail when he 
sees me, when we meet.

    Question. Did you know where Mr. King was calling you from when he 
made those phone calls?
    Answer. Well, yes, I do, because caller ID. So I would see Don King 
Productions or he would call from a cell phone. It would be a 516 area 
code. Then I found out later he was in New York. He was calling from 
New York. He was presently on trial, and he was going back and forth to 
court. And also--yes, he was in New York for court trial.

    Question. Where were you at the time?
    Answer. I was in Maryland, Baltimore, at my home in Maryland.

    Question. Did Mr. King tell you what he wanted to talk to you about 
during those phone calls?
    Answer. Basically he would summarize conversations, you know, 
concerning my career; they want me, and I should come up and speak with 
them right away.

    Question. Did you go to visit with Mr. King following those phone 
calls?
    Answer. Yes, I did.

    Question. Would you tell me, to the best of your recollection, of 
the first meeting you had with Mr. King and where that meeting took 
place?
    Answer. Okay. Well, the first meeting took place at the hotel he 
was staying in. He was waiting for court, and it was basically just 
about him wanting to sign me and me fight for Don King Promotions and 
what he could do for me and how he rules boxing.

    Question. What did he tell you that he could do for you?
    Answer. He said he could get me a title shot within a year to 18 
months--no later--and that he could keep me the number one in the 
world. He said, well, I can't get you number one right now because I 
got to deal with Butch.
    So, he made a deal with Butch Lewis, and he couldn't do nothing 
about moving him, but as soon as Vaughn Bean fights, I would move right 
into number one position.

    Question. Did he tell you how you would do that?
    Answer. Not specifically. He just stated it would be done, that, 
you know, he would, Bob Lee is his man. Like I said, I just took that 
Bobby Lee would do whatever King tells him to do.

    Question. At the time, did you discuss with Don King whether or not 
you had a contract with Cedric Kushner Promotions?
    Answer. Yes. I did.

    Question. What did you tell him about that?
    Answer. I mean, I told him I am still under contract with Cedric 
Kushner.

    Question. What did Mr. King say, if anything?
    Answer. Well, he said, don't worry about that. And he said he going 
to get a contract drawn up for me and I would meet him in Florida on 
the weekend. This was like on Monday I met him, but then maybe on 
Wednesday, he called me and asked me to come back up to New York. He 
said he had a contract up there in New York, could I come back up. He 
got some money to give me--no, he said he want to talk to me. I said, 
talk, talk? He said, I can't give you money over the phone. You got to 
come back up. So I went back up the next day, spoke with him.

    Question. What period of time was this?
    Answer. The exact date? You have the paper. I can tell you the 
exact date. It was May. The contract, the exact date is on the 
contract, but that was the day.

    Question. This was sometime in May?
    Answer. May, right.

    Question. You are pretty sure about that?
    Answer. I am positive it was May.

    Question. This was a second meeting with Mr. King?
    Answer. Right.

    Question. Where did that meeting take place?
    Answer. Same place.

    Question. In his hotel in New York City?
    Answer. Right.

    Question. Did Mr. King show you a contract at that time?
    Answer. Yes.

    Question. Did he give you money at that time?
    Answer. Yes.

    Question. How much money did he give you?
    Answer. $25,000.

    Question. Had Mr. King ever given you any money before?
    Answer. He gave me money every time I saw him. I only met him, was 
alone with him one prior time. He gave me like $2,000. He gave my 
friend $1,000. This time he gave me $25,000, and gave my friend $5,000.

    Question. What is the name of your friend?
    Answer. His name is Melvin Walker. Everybody knows him as Winkie. I 
am referring to him as Winkie. That's who I am talking about.

    Question. Going back to the second time you met with Don King at 
his hotel room and he gives you $25,000 and he gives you a contract, 
can you tell me anything else about your conversations with Don King at 
that time?
    Answer. Well, he basically was telling me, you know, I shouldn't 
fight for Kushner anymore, and that I could live off this money until, 
you know, I am ready to start my reign with him. If I need anything, to 
call him, because, you know, just give him a call. He would take care 
of him for me, and that we are going to make a good team. We are going 
to make the championship. He is going to deliver Evander for me. He was 
the best promoter out there. He rules boxing. He is the best man for 
the job, telling me a little bit about his history, just that kind of 
stuff.

    Question. Do you specifically recall Don King saying at that second 
meeting in New York that you shouldn't fight for Kushner anymore?
    Answer. Yes, I said I shouldn't and I don't.

    Question. He said you shouldn't and don't?
    Answer. Right.

    Question. That's the meeting that he gave you $25,000?
    Answer. Right.

    Question. And your friend $5,000?
    Answer. Right.

    Question. Do you recall anything else at that meeting?
    Answer. I mean, it is a whole lot. I mean, it is a whole lot. I am 
trying--I'm sure more things happened that I probably remember. Right 
now, I can't.

    Question. That's fair enough. If there are other things that you 
recall at a later time, that is fine. I am just really looking to see 
what it is that you recall as we sit here today.
    Answer. Okay.

    Question. After that second meeting with King in New York city, did 
there come a time when you had the opportunity to fight a boxer named 
David Tua?
    Answer. Yes.

    Question. Can you tell me how that came up?
    Answer. How the fight came up?

    Question. Yes. How did you get the opportunity to fight David Tua?
    Answer. Well, David Tua is a fighter that a lot of people in the 
boxing world holds in high esteem and HBO was looking for a replacement 
for Michael Grant. So my manager and I thought that David Tua was 
perfect for myself. So we had to convince our promoter to make the 
fight.

    Question. When you say ``our promoter,'' whom are you referring to?
    Answer. Cedric Kushner. So we tried to get my promoter, Cedric 
Kushner, the same feeling as us, saying it is a good fight for us. It 
looks like a high risk on paper, but it is really an easy fight.
    So we sent back and forth and they finally came up with something 
that everybody believed in the fight, so we made the fight.

    Question. Did you call Cedric Kushner and ask him to make the fight 
for you?
    Answer. Yes, I did.

    Question. Eventually did Mr. Kushner make that fight?
    Answer. Yes, he did.

    Question. Were there contracts signed in connection with the fight 
between yourself and David Tua?
    Answer. Yes.

    Question. Were those contracts known as bout agreements, to the 
best of your knowledge?
    Answer. Yes.

    Question. Did you sign a bout agreement for the David Tua fight?
    Answer. Yes.

    Question. Was that fight to take place on September 26th of 1998?
    Answer. Yes.

    Question. About when do you recall the fight with Tua being made, 
about what time?
    Answer. What date?

    Question. Yes.
    Answer. Well, you can get the exact day. It was a press conference 
for Lennox Lewis, Zeljko Mavrovic. That was the exact date is that the 
fight was really made and announced.
    The press conference, I am sure that day it was documented, that 
date that the press conference, you know, I was on the phone with 
Cedric when they announced it. He told me they have a deal and they 
announced the fight.

    Question. Following that press conference, what did you do to begin 
to get ready for fighting David Tua?
    Answer. We set up training camp in Phoenix, Arizona. I went out to 
Phoenix, Arizona to start training, getting ready; sparring, running, 
training, weight lifting, doing the whole regimen you normally do 
before a fight.

    Question. Did you have a trainer?
    Answer. Yes, I did.

    Question. Who was that?
    Answer. Chuck McGregor.

    Question. Was he with you in Phoenix, Arizona?
    Answer. Yes.

    Question. About when do you recall going to Phoenix to start 
training for the Tua fight? Was it the 4th of August?
    Answer. First week in August.

    Question. After you began training for the David Tua fight in 
Phoenix, Arizona, did there come a time when you received any 
communications from Don King?
    Answer. Yes.

    Question. Can you tell me when the first of those was?
    Answer. I don't know the exact date. I can find out the exact date.

    Question. In relation to your going out to Phoenix is really what I 
am interested in.
    Answer. Okay, it was maybe--I was out there for maybe 3 weeks, 
about 3 weeks in the training camp.

    Question. Did Mr. King give you a call?
    Answer. Yes.

    Question. Do you know where he was calling you from?
    Answer. He called me--I think he either called from--all right. 
Wait a minute. His lawyer called me, had me call him at his house in 
Ohio.

    Question. Do you know where his lawyer was calling you from?
    Answer. He was calling you from New York.

    Question. So is it accurate that, after you were in training camp 
in Phoenix, Arizona for a short period of time, Don King's lawyer 
called you in Phoenix and asked you to call Don King in Ohio?
    Answer. Right.

    Question. Did you call Don King?
    Answer. Yes.

    Question. What do you recall of that conversation?
    Answer. Don telling me to meet him in Baltimore the next day. He 
had some important things he needed to discuss with me, like very 
urgent.

    Question. Did he tell you what it had to do with?
    Answer. I don't think at that point he did.

    Question. But he did tell you that it was very urgent that you meet 
him the next day?
    Answer. Well, I knew what it had to do with actually because his 
lawyer told me what it had to do with.

    Question. What did his lawyer tell you it had to do with?
    Answer. His lawyer told me about the fight, Hasan Murphy, the 
lawyer's son told me, why am I taking this fight? I don't need this 
fight. Don got a plan and I should stick with the plan and I should 
give Don a call.When I called Don, Don said, you know, I need to speak 
with you face-to-face, you know, you can meet me in Baltimore tomorrow. 
You know, we have a lot of things to talk about. I have some things to 
tell you.

    Question. Now, the call that you received from, did you say Hasan 
Murphy?
    Answer. Right.

    Question. Is that the son of Don King's lawyer?
    Answer. Right. I think he worked the case also, so he was like part 
of the team too.

    Question. Hasan Murphy is also a lawyer?
    Answer. Right.

    Question. A lawyer who works for Don King?
    Answer. Right.

    Question. Did Mr. Hasan Murphy tell you that he was calling at Don 
King's request?
    Answer. Yes.

    Question. Did you meet Don King in Baltimore?
    Answer. Yes.

    Question. Where did you meet?
    Answer. Originally we met at a restaurant. Then we proceeded to 
like a press conference at Legg-Mason, L-E-G-G-MA-S-O-N.

    Question. Do you recall what restaurant you at?
    Answer. We met at the Prime Rib.

    Question. During the time that you spent with Mr. King in 
Baltimore, did you have any discussions concerning your fight with 
David Tua?
    Answer. Yes.

    Question. Can you tell me what you recall of those conversations?
    Answer. Well, basically, that Tua wasn't in the plans, and that I 
don't need Tua. That we can go to number one. We don't need Tua. Tua 
was behind me and that it really is a step back to take this fight, and 
that nobody has my best interest in mind when making this fight.

    Question. Did Mr. King tell you that Cedric Kushner did not have 
your best interests in mind?
    Answer. I'm not sure if he told me at this time. I think maybe he 
told me that the second time I saw him, after I went back again.

    Question. But in Baltimore, do I understand, if I understand you 
correctly, are you saying that Mr. King told you not to fight David 
Tua?
    Answer. Yes.

    Question. At that point in time though you had already signed the 
bout agreement for the Tua fight, correct?
    Answer. No, I didn't.

    Question. You hadn't signed it yet?
    Answer. No.

    Question. All right. But you had taken the fight?
    Answer. Yes.

    Question. And you were in training for the fight?
    Answer. Yes.

    Question. And you had agreed to make that fight?
    Answer. Yes.

    Question. Do you recall Don King saying anything else to you in 
this meeting in Baltimore?
    Answer. Basically, I mean, that really sums it up that meeting.

    Question. What happened after that meeting? What did you do?
    Answer. I went home and pulled out of the fight, told them that I 
wasn't fighting. Told my manager and told Cedric Kushner that I wasn't 
fighting.

    Question. Was that as a result of Mr. King telling you that he 
didn't want you to fight?
    Answer. Basically, yes.

    Question. What happened next in relation to your involvement with 
Don King?
    Answer. Okay. I went--at that point I was out of the fight and I 
just--I was laying at home and just thinking about the whole situation. 
Upon further talking to my managers, I reconsidered and said, well, I 
am going to go ahead and take this fight because I can win this fight, 
so I am going to go ahead back to camp, which is Phoenix. So I jumped 
right on the plane the next day, went back to Phoenix, went there, 
signed the bout agreement and was getting ready to prepare to start 
this fight. Five minutes after I signed the bout agreement, Don King 
called me, asked me to come out to Vegas, he has some important thing 
to talk to me about. He had an important person for me to see.
    So I said, okay. so they got me--they said they would call me back 
with my flight information. They called me back with my flight 
information. So I went out to Vegas and met with him.

    Question. When Don King called you, you were in Phoenix at the 
time.
    Answer. Right.

    Question. And he was in Las Vegas?
    Answer. Right.

    Question. Did Mr. King arrange for your airfare to Las Vegas?
    Answer. Yes.

    Question. And you flew to Las Vegas, right?
    Answer. Yes.

    Question. Did you meet with Mr. King at that time?
    Answer. Yes.

    Question. Where did that meeting take place?
    Answer. At his home.

    Question. At his home in Las Vegas?
    Answer. Right.

    Question. What can you tell us about that meeting in Las Vegas?
    Answer. Well, Don King told me that I can't win this fight. I can't 
beat David Tua in and out the ring. That Cedric Kushner doesn't really 
care about me losing this fight because he knows that I am leaving him 
and coming to him, leaving Kushner and going with King and he can't do 
nothing with it, and that the judge was not going to let me win that 
fight. That I had to really knock Tua out.
    If I didn't, there was no way I was winning that fight, and he 
said--he told me that stay for dinner, stay overnight, that he had some 
things to tell me about, that I don't have to take his word for it.
    The president of the IBF, Bobby Lee, was flying in tonight. He 
would tell me out of his own mouth that Kushner is not with me, he is 
against me. I could stay around and meet him. He would be in later this 
evening. He would put me up at the Hilton for the night. Bobby Lee 
would tell me himself.
    He said you don't have to take my word for it. Bobby Lee would tell 
me everything I need to know and more. This is not the man I need to be 
with. He don't have my best interests at heart.

    Question. Did he ever explain to you what he meant when he said 
that Cedric Kushner didn't have your best interests at heart?
    Answer. Well--he said that Cedric and Main Events didn't have my 
best interests at heart. What I took from that was that Cedric Kushner 
was conspiring to have David Tua win the fight.

    Question. Can you describe for me in what way Mr. King explained 
that Cedric Kushner was conspiring with Main Events against you?
    Answer. Well, he said that Kushner and Main Events was coming away 
with Tua and I was going to be empty, coming to him empty, and, you 
know, Tua was going to move right into the number one spot.

    Question. In the course of that explanation, did Mr. King ever say 
to you directly or imply to you that Mr. Kushner would have a piece of 
David Tua?
    Answer. Yes. I mean, when he said Tua and Main Events is the only 
winners and I was coming away--coming to him empty, then what I took 
from it was that Tua was going to go ahead to the number one spot and 
fight for the championship and they would have plenty of money to 
divide amongst themselves and I would probably fall out of the top 10, 
whatever.

    Question. ``They'' being Main Events?
    Answer. Main Events and Kushner.

    Question. Did Mr. King ever give you any money at that meeting?
    Answer. Yes.

    Question. What did he give you?
    Answer. He gave me $25,000--no, he gave me $10,000 cash.

    Question. Aside from the cash, did Mr. King give you any other kind 
of monies?
    Answer. Well, he gave me a check.

    Question. For how much?
    Answer. $125,000.

    Question. Do you recall on whose bank account that check was drawn?
    Answer. Don King Productions.

    Question. Were there any notations on that check?
    Answer. No.

    Question. Was there anything on that check that indicated in 
writing that it was for a loan or an advance or for--with relation to 
any contract that you had signed with him?
    Answer. Not at all.

    Question. He just gave you money at the time?
    Answer. He gave me money to make up for the loss of money that I 
wasn't going to get for fighting David Tua?

    Question. Was the money that Mr. King gave you, in your 
understanding of the monies that Mr. King gave you in Las Vegas, did 
any of those monies relate to any of the contracts that you signed with 
Mr. King?
    Answer. No. I made sure of that.

    Question. You made sure that they didn't relate to it?
    Answer. Right.

    Question. As a result of those conversations with Mr. King in Las 
Vegas and his giving you the money that you just described, can you 
tell me whether or not that had any effect on your participation in the 
David Tua fight?
    Answer. Ultimately it had everything to do with it.

    Question. What was the effect of that?
    Answer. There would be no David Tua fight?

    Question. Now, what did you do after you left the meeting with Don 
King?
    Answer.I went back to Phoenix and the next day I had a meeting with 
Cedric Kushner, Jim DiLorenzo, Steven Munisteri, M-U-N-I-S-T-E-R-I, 
Steven Nelson, Robert  M-I-T-T-L-E-M-A-N, Mittleman and Chuck McGregor.

    Question. What was the result of that meeting?
    Answer. The result of the meeting was, I was angry and from that 
meeting I just went right back to Baltimore.

    Question. Did there come a time after you went back to Baltimore 
that you had any other conversations with Don King?
    Answer. Yes.

    Question. What can you tell me about those conversations?
    Answer. Well, he told me I don't have to fight. All I have to do, 
all I have to have is an injury, I don't have to fight. Nobody can make 
me fight. So I should be coming up with an injury.

    Question. Do I take it from your testimony that Mr. King suggested 
to you that you fake an injury in order to pull out of the David Tua 
fight?
    Answer. Yes.

    Question. Mr. Rahman, I want to thank you for sitting with us today 
and providing us with some of the facts and events that have occurred 
in the last few months.
    I am sure that we didn't cover everything today and we might have 
an opportunity at a later point in time to get into some more issues, 
but I want to thank you for coming in and talking with us today.
    Answer. Okay. No problem.
                                 ______
                                 
                              CERTIFICATE
    I, LILLIAN SCHINDLER, hereby certify that the Sworn Statement of 
HASIM RAHMAN was held before me on the 25th day of September, 1998; 
that said witness was duly sworn before the commencement of his 
testimony; that the testimony was taken stenographically by myself and 
then transcribed by myself; that the party was represented by counsel 
as appears herein;
    That the within transcript is a true record of the Sworn Statement 
of said witness;
    That I am not connected by blood or marriage with any of the 
parties; that I am not interested directly or indirectly in the outcome 
of this matter; that I am not in the employ of any of the counsel.
    IN WITNESS WHEREOF, I have hereunto set my hand this 25th day of 
September, 1998.
                                                  LILLIAN SCHINDLER

    The Chairman. Thank you very much. Mr. Hendrick, welcome.

           STATEMENT OF KIRK HENDRICK, FORMER CHIEF 
      COUNSEL TO NEVADA ATHLETIC COMMISSION, JONES VARGAS

    Mr. Hendrick. Thank you, again, Senator McCain and thank 
you for taking the time on this important issue to the country. 
On such a very important day for this Senate and for the 
country, it is very nice to see that you take the time to 
listen to us on this issue. By way of introduction, I am an 
attorney in private practice in Las Vegas, Nevada with the law 
firm of Jones Vargas.
    However, up until about a week and a half ago, I had the 
honor and privilege of serving as the chief deputy attorney 
general for the state of Nevada and had the privilege of being 
the chief legal counsel for the Nevada Athletic Commission for 
the last 3 years.
    In my prepared testimony, I have reviewed several areas 
where I believe that Nevada has been trying to improve this 
sport over the last year or so since the Muhammad Ali Boxing 
Reform Act was passed. And I also included a few suggestions 
for further improvement at the state and national levels.
    Initially I want to say the Professional Boxing Safety Act 
and the Muhammad Ali Act have shined much needed light into 
some very dark corners of this sport. As Dr. Homansky alluded 
to, however, there are so many dark corners in this sport that 
it can always take more light to be shined upon them to draw 
out the negative factors.
    In the interest of conserving time, I'd like to go over 
just a few suggestions that I have grouped into the categories 
of medical protection, consumer protection, and financial 
protection.
    With regard to medical protection, I echo the comments of 
Dr. Homansky, who is a worldwide respected ringside physician 
and now a commissioner. I would defer to him on all medical 
issues, but I want to note one area that would be of great 
benefit to both fighters and state commissions, and that is a 
national registry or repository where fighters can send their 
medical examinations and tests.
    I reviewed the bill that was introduced last week by 
Senator Reid of Nevada and co-sponsored by yourself, Mr. 
Chairman, and I was encouraged by the fact that the bill does 
propose just exactly that, a medical registry to be created by 
federal law.
    Even more encouraging is the fact that the bill would 
require boxers to have baseline testing done before they ever 
receive their first professional license. This is very 
important because such testing could track whether a fighter's 
physical well-being has diminished over the course of his 
career, and that information could be a valuable tool for 
determining and knowing when a fighter should retire.
    From a legal standpoint, it is also very important that the 
information be kept confidential. Necessary exceptions could be 
made for state commissions to review the information to 
determine a fighter's physical and mental fitness, and also for 
specifically approved legal, administrative and judicial 
proceedings. Such a registry or repository of medical 
information would save boxers the enormous amount of time and 
money that they currently have in retaking and retaking the 
same tests every time they go from one state to another state 
to be relicensed.
    The centralization of medical information would also save 
state commissions the enormous amount of time that is currently 
spent tracking down medical information from fighters who quite 
frankly just don't always carry on them the medical evaluations 
that they have taken.
    That has taken state commissions a lot of time that could 
be better spent on properly regulating this industry.
    The Chairman. Did you hear that recommendation, sir?
    Mr. Sirb. Yes.
    The Chairman. Do you agree?
    Mr. Sirb. Yes.
    The Chairman. Thank you. Go ahead.
    Mr. Hendrick. Thank you, Senator. With regard to consumer 
protection, I submit that boxing fans would benefit if every 
boxing match was governed under the same rules. Currently, as 
mentioned, the Association of Boxing Commissions has drafted 
and has enacted unified rules for championship bouts, but the 
undercard rules continue to be significantly different from 
state to state.
    The consistency of rules for every boxing match will 
benefit the fighters, the ring officials and also boxing's 
fans. Consistency will benefit the boxer because it is very 
difficult for them to protect themselves if they are having to 
try to remember things like whether or not this particular 
jurisdiction has enacted and is using the three knockdown rule 
or not.
    Similarly, inconsistency makes it very difficult for 
referees to focus on a contest when they are having to remember 
whether or not the rules change from bout to bout. This would 
be the equivalent of a Wimbledon line judge having to always 
keep in mind whether or not the lines are in or out, depending 
on which match they are playing on a particular day.
    Finally, consistency will benefit the live and television 
audiences of boxing, because it is quite frustrating and 
confusing for the audience and the fans of boxing if they have 
to keep track of all the rules that change from bout to bout 
after the announcer mentions them before the fight starts. It 
is my opinion that more consistency in the sport should 
translate into more credibility by its fans.
    With regard to financial protection, this Committee and 
yourself, Senator McCain, should be applauded for the measures 
already taken to protect not only the physical well-being of 
the fighters, but also their fiscal well-being.
    It is no secret that the disparity between the business 
acumen of boxers and that of their managers and promoters has 
led to many fighters being taken advantage of. Nevada and 
several other jurisdictions where boxing is held are 
continually trying to revise their laws to ensure that fighters 
get to keep as much as possible of what they earn inside the 
ring.
    One area where Nevada has had great success is binding 
arbitration. And with all due respect to Mr. English and his 
concerns about binding arbitration, I can tell you that in 
Nevada, it has worked on several occasions. And Nevada, and its 
commissioners, spend a great deal of time being sure that the 
fighters have available to them arbitration or alternative 
dispute resolution measures that can speed up the process and 
can make it more economically feasible for the fighter. This 
should be encouraged in all boxing jurisdictions.
    The obvious caveat to this, and I think one that Mr. 
English would agree with me on, is that any arbitrators should 
be knowledgeable in this sport, the industry and its laws. If 
they are not, then arbitration will not help because all we do 
is get a speedier, irrelevant and probably incorrect answer. 
One way to achieve the objective of having important binding 
arbitrations that help this industry would be perhaps having a 
federal grant that could train volunteer potential arbitrators; 
those with knowledge in the industry who are not trying to 
economically benefit by helping the boxers and the managers 
receive a fast and speedy resolution to any disputes under 
their contracts.
    In conclusion, I want to again thank you, Senator McCain, 
and thank this Committee for not only allowing me to represent 
Nevada, but I believe all states where boxing is held and for 
allowing me to offer a few suggestions on how the states and 
the federal government can continue to work cooperatively 
together to protect and effectively regulate this very valuable 
sport.
    [The prepared statement of Mr. Hendrick follows:]

  Prepared Statement of Kirk Hendrick, Former Chief Counsel to Nevada 
                   Athletic Commission, Jones Vargas
    As Chief Deputy Attorney General for the state of Nevada, I had the 
privilege of being Chief Legal Counsel to the Nevada Athletic 
Commission from May 1998 to May 2001. Those 3 years proved to be one of 
the busiest times for boxing in Nevada's history. During 2000 alone, 
the Nevada Athletic Commission approved and supervised 64 boxing 
events, containing 387 separate boxing matches. While California leads 
the nation in total number of boxing events each year, Nevada remains 
the ``Boxing Capitol of the World.'' Thousands of fans come to Nevada 
each year to watch boxing, and hundreds of thousands more watch the 
spectacle that is boxing on their television sets around the world.
    Whenever boxing fans gather, someone inevitably asks whether the 
sport can ever be controlled. Well, I am proud to tell you that in my 
humble opinion, I believe the sport can be effectively regulated. 
Indeed, the success that Nevada has achieved would not have occurred 
without tight regulatory controls, or without good faith cooperation 
from its licensees.
    As a member of the National Association of Attorneys General Boxing 
Task Force, I had the opportunity to work with legal counsel from 17 
other boxing jurisdictions to try and improve the sport. Also through 
the Task Force, I witnessed people in every facet of this industry 
eagerly volunteering their time to make this sport better.\1\ And 
indeed, boxing has gotten better over the last few years. Milestones, 
such as the Professional Boxing Safety Act and the Muhammad Ali Boxing 
Reform Act, have shined a spotlight into many of the darker corners of 
this sport. Unfortunately, there remain so many areas in this sport 
that could be improved, I could not possibly cover them all within the 
allotted time. Consequently, I want to speak briefly about a few things 
that Nevada has done in the last year to protect boxers, and then offer 
a few suggestions for further improvements.
---------------------------------------------------------------------------
    \1\ The National Association of Attorneys General Boxing Task Force 
culminated its work by releasing an extensive report in May 2000. A 
copy of the report can be viewed online at http://www.oag.state.ny.us/
press/reports/boxing_task_force/table_of_contents.html.
---------------------------------------------------------------------------
Medical Protection
    First of all, let me say that the Professional Boxing Safety Act 
(15 USC Sec. Sec. 6301 et seq.) has assisted the states' demands that 
promoters must always protect the health and safety of the fighters. I 
know that Dr. Edwin ``Flip'' Homansky, who is not only a current Nevada 
commissioner but is respected around the world as a leading ringside 
physician, is one of your witnesses today, so I will defer to him on 
the medical issues in the sport. However, I wanted to point out two 
areas where I think Nevada has clarified potential ambiguities in the 
federal law. I highlight these areas not so much for substance, but 
rather to illustrate how the states can implement, and hopefully 
improve upon, national legislation.
    In specific, 15 USC Sec. 6304(2) requires that an ``ambulance or 
medical personnel with appropriate resuscitation equipment'' be 
continuously at the event. The Nevada Athletic Commission recently had 
an opportunity to review a similar provision in its regulations; and to 
prevent any uncertainty, the commission mandated that the ambulance be 
``available to transport'' an injured boxer to a medical facility. See 
Nev. Admin. Code 467.414(1). While common sense would seem to dictate 
that the on-site ambulance would be prepared to transport (i.e. 
ambulate) a boxer, it's surprising how many promoters would prefer to 
simply call ``911'' if a transporting ambulance is required. While that 
arrangement might be more cost effective for the promoter, those 
initial minutes waiting for an ambulance to arrive could be the most 
crucial in a fighter's ultimate recovery.
    The other area in 15 USC Sec. 6304 that should be mentioned is 
section (4). That provision compels a promoter to provide ``health 
insurance for each boxer.'' Nevada has had a similar statute for years, 
but recently had to pass a regulation clarifying that the promoter must 
provide ``primary insurance coverage'' for all boxers. See Nev. Admin. 
Code 467.149(1) (emphasis added). Again, this point seems to need no 
clarification, but some promoters are far too quick to try and save a 
dollar at the fighters' expense.
Financial Protection
    Many state commissions have become much more involved in the 
financial aspects of this professional sport. The commissions realize 
that they must protect the well-being of the athletes both inside and 
outside the ring. Likewise, fighters now realize that they must protect 
themselves at all times in the ring, and they must protect their 
wallets at all times outside the ring.
    It wasn't that long ago when fighters were getting ``physically 
beaten'' inside the ring and ``fiscally beaten'' outside the ring. The 
stories are legendary about professional boxers who made thousands 
(even millions) of dollars during their careers and then lost it all. 
One of the greatest fighters of all time, Joe Louis, would have wound-
up penniless if it wasn't for the assistance of a few good fans.
    As counsel to the Nevada Athletic Commission, rarely did a week go 
by without me, or my Senior Deputy Keith Kizer, talking to a fighter, 
manager or promoter about Nevada's boxing contract laws. While the 
Attorney General's office is prohibited by state law from advising 
anyone other than state officers and agencies, Senior Deputy Kizer and 
I always took the time to explain where the individuals could locate 
Nevada and/or federal law on the subject.\2\ Additionally, whenever it 
was feasible, Senior Deputy Kizer and I also explained the reasoning 
behind many of the state's boxing laws. For instance, most of the 
financial laws surrounding boxing usually occurred for one of two 
reasons: (1) a need to protect the fighter's interests, or (2) a need 
to protect the state's interests (e.g. tax collection). Historically, 
most drafters of state boxing laws have believed that managers and 
promoters possess more business acumen than fighters, and therefore 
government intervention was necessary to level the playing field. 
Consequently, almost every law written regarding fighters' purses has 
been intended to ensure that the fighter gets paid what he agreed upon 
with the promoter before he stepped into the ring. The remainder of the 
laws regarding boxers' compensation normally seek to ensure that the 
fighters enter into truthful and knowing arrangements with their 
managers and promoters. The obvious intent behind such laws is that 
participants will get paid as much as possible for their services, and 
hopefully they will be able to hold onto some of that money after their 
short professional boxing careers.
---------------------------------------------------------------------------
    \2\ It bears mentioning that the Internet has greatly improved this 
constituent service. For example, Nevada's statutes and regulations 
concerning ``unarmed combat'' can be found on the Athletic Commission's 
website at http://www.state.nv.us/b&i/ac/regs.htm.
---------------------------------------------------------------------------
    Although there are many more sad stories like Joe Louis, a few 
positive financial stories are starting to emerge as well. For 
instance, Sugar Ray Leonard has become a very wealthy and sophisticated 
businessman. He recently became licensed as a promoter in the state of 
Nevada and commented during his licensing hearing that one of his 
objectives was to help other boxers keep some of the money they earn in 
their careers. That is a noble goal because there is a very small 
window of economic opportunity in this sport.
    Most boxing fans don't realize that the great majority of 
professional boxers never earn more than a few hundred dollars per 
bout. Out of that purse, the typical fighter usually is obligated to 
pay 33\1/3\ percent to his managers,\3\ pay another 10 percent to his 
trainers, pay an annual license fee for each state,\4\ and pay for 
medical tests required by each state's athletic commission.\5\ So, out 
of a $1,000 purse, a fighter is generally lucky if he walks home with 
enough money for two good steaks: one for his dinner and one for his 
black eye.
---------------------------------------------------------------------------
    \3\ Nevada law prohibits a manager or managers from receiving more 
than 33\1/3\ percent of a fighter's earnings. Nev. Admin. Code 
467.102(6).
    \4\ Nevada charges an annual fee of $25 for a professional unarmed 
combatant's license. Nev. Admin Code 467.012(5).
    \5\ The Nevada Athletic Commission requires each applicant for a 
boxing license to have a physical examination, an ophthalmologic eye 
examination, and negative results on recent tests for HIVand hepatitis. 
Nev. Admin. Code 467.027. Additionally, the commission has authority to 
order any other ``examination or testing'' it deems necessary to 
protect the health and safety of the fighter, his opponent, the ring 
officials and the public. Id.
---------------------------------------------------------------------------
    Although the above breakdown sounds appalling when considering that 
the boxer just put his physical well-being on the line, it's a whole 
lot better than the old days when some unscrupulous promoters would 
come to the boxers after the fight and say that ticket sales hadn't 
gone as well as expected. The crooked promoters would then renege on 
any signed contracts (if there even were any), and pay the fighters 
less than promised. Even worse, are the stories about some fly-by-night 
promoters who would give checks to the fighters knowing that there were 
insufficient funds to pay all of the bills for the event. Thus, whoever 
got to the bank first on Monday morning would get paid, the others 
would not.
    Thanks to strong regulation by good athletic commissions, most 
promoters are now required to post bonds before holding an event. 
However, those bonds are generally intended to protect the ticket-
buying public from a promoter who might abscond with the ticket money 
or fail to put on a show. In order to protect the fighters from crooked 
promoters, some states are beginning to require promoters, especially 
the newer promoters, to put enough money up front before an event to 
insure that all the fighters get paid. In Nevada for instance, 
Executive Director Marc Ratner has made it a standard request that any 
new promoter's license should be conditioned that the total amount of 
fighters' purses must be placed in advance into the vault at the host 
hotel. That way, the fighters can get their checks cashed immediately 
after the fight.
    The state of Nevada has taken many other affirmative steps to 
ensure that fighters actually get paid for the services they provide 
inside the ring. Such measures have included restricting the monetary 
advances promoters make to fighters. See Nev. Admin. Code 467.127. 
Historically, such advances were an easy way for under-handed promoters 
to financially bind a fighter for long periods of time. In essence, the 
fighter was obligated to keep climbing into the ring simply to pay off 
prior indebtedness to the promoter. Another area where Nevada has 
achieved great success is permitting boxers and managers to 
contractually agree that any disputes will be submitted to binding 
arbitration. See Nev. Admin. Code 467.102(4). This process has steadily 
become an important safeguard for boxers who believe their manager is 
not using his or her best efforts to secure remunerative bouts for the 
fighter.
    Pursuant to Nevada law, when a boxer or manager requests an 
arbitration, the chairman of the commission must appoint a 
representative of the commission (traditionally one of the 
commissioners) to serve as arbitrator in the matter. Customarily, the 
assignments are dispersed on a voluntarily basis and rotate amongst all 
of the commissioners. This arbitration process is very significant to 
fighters, because they can resolve disagreements with their managers in 
an expeditious manner. Since most fighters' careers are relatively 
short, they don't have the luxury of waiting for the slow wheels of the 
judicial system to settle their disputes. Moreover, due to the general 
disparity between the business skills of managers and boxers, an 
unscrupulous manager could intentionally try to tie up a boxer's career 
by filing a civil action. Conversely, by agreeing to binding 
arbitration, both parties know that any conflicts will be resolved 
quickly and economically.
Sanctioning Organizations
    Although the Muhammad Ali Boxing Reform Act placed some 
requirements on sanctioning organizations, it is still difficult to 
determine how many of these groups actually provide anything useful for 
the sport. One of the reasons why Nevada is recognized as the ``Boxing 
Capitol of the World,'' is because of the number of championship fights 
held in the state each year. During 2000 alone, Nevada hosted 26 world 
championship fights and 28 continental championships. For each one of 
those championships, a sanctioning organization made money from Nevada 
licensees (usually the boxer, but sometimes the promoter). Many of the 
championship fight cards attracted thousands of fans in person, and 
hundreds of thousands of more fans watched the events on television; 
and I would venture to guess that most of those fans didn't have any 
real notion of what the organization behind the ``belt'' actually does 
for the sport. The more knowledgeable fans would note that the 
organization ``ranks'' the fighters in each weight class, and awards a 
``belt'' to the champion in each category. Beyond those aspects 
however, even the most ardent fan probably could not describe what else 
these organizations do to earn 3 percent of the champion's purse.
    Because Nevada hosts so many championship fights each year, it is 
very difficult for someone to sneak anything by the Nevada Athletic 
Commission. Simply stated, the commissioners, Executive Director Marc 
Ratner, and his staff have heard all of the stories before.
    When it came to light last year that the International Boxing 
Federation (IBF) was involved in potentially corruptive practices, 
Nevada took swift disciplinary action against those who held privileged 
promoter's licenses in the state and had admitted their involvement in 
the matter. In summary, Nevada's Executive Director with legal 
assistance from the Attorney General's office, filed public 
disciplinary proceedings against promoters, Top Rank, Inc. and Cedric 
Kushner Promotions, Ltd. Discipline was warranted because the 
presidents of both those promotional companies acknowledged during the 
IBF proceedings that they had paid the president of the IBF, Robert 
Lee, money that was beyond the organization's standard sanctioning 
fees. After the disciplinary actions were filed, the parties reached 
stipulated settlements in both cases. The settlements included 
regulatory fines of $125,000 against Top Rank, Inc. and $175,000 
against Cedric Kushner Promotions, Ltd. Additionally, the commission 
placed conditions on each promoter's license regarding further dealings 
with sanctioning organizations.
    In a related matter, admissions by Dino Duva, the former president 
of New Jersey Sports Promotions, dba Main Events, caused Nevada's 
commission to call that promoter forward into a licensing hearing to 
explain why it also should not be subject to monetary fines and 
conditions on any future licenses. The commission ultimately determined 
that the immediate remedial actions taken by Main Events, in 
conjunction with the company's extensive cooperation with the federal 
government's investigation, favored re-licensing of the company for the 
2001 calendar year with appropriate conditions.
    Due in part to the IBF criminal proceedings, and recognizing that 
sanctioning organizations play a significant role in boxing, the Nevada 
Athletic Commission decided to study the involvement that the various 
sanctioning organizations have in Nevada. In November 1999, the 
commission asked Nevada Attorney General Frankie Sue Del Papa to 
undertake a comprehensive look at how the sanctioning organizations are 
structured and how the organizations enhance or detract from the 
commission's goals of protecting the boxers, as well as the ticket 
buying and pay-per-view buying public.
    The commission's Report to the Governor on the Role of Sanctioning 
Organizations in Nevada's Boxing Industry was presented to Nevada 
Governor Kenny C. Guinn at the end of April 2001.\6\ The report is the 
most extensive review of sanctioning organizations ever conducted by 
Nevada. Indeed, the commission believes that the report is possibly the 
most comprehensive analysis of sanctioning organizations ever conducted 
by a regulatory body.
---------------------------------------------------------------------------
    \6\ A copy of the commission's report can be found on the Nevada 
Attorney General's website at http://ag.state.nv.us/gaming/
sanctioning.pdf.
---------------------------------------------------------------------------
    The bulk of the report is an effort to better understand the 
internal structure and workings of sanctioning organizations. To 
accomplish this goal, the Attorney General's office sent letters to 
eleven organizations that sanction boxing title bouts. Those eleven 
sanctioning organizations are: the International Boxing Association 
(IBA), the International Boxing Council (IBC), the International Boxing 
Federation (IBF), the International Boxing Organization (IBO), the 
North American Boxing Federation (NABF), the National Boxing 
Association (NBA), the World Boxing Association (WBA), the World Boxing 
Council (WBC), the World Boxing Federation (WBF), the World Boxing 
Organization (WBO) and the World Boxing Union (WBU).
    Although varying in detail, all eleven sanctioning bodies responded 
to the letter. Additionally, Executive Director Marc Ratner, Senior 
Deputy Kizer and I met with representatives of the WBC, IBA and NABF. 
Those three organizations provided very detailed information about 
their activities, as did the WBO. Correspondence was received from two 
organizations, the WBU and NBA, stating that those entities do not plan 
to sanction any title bouts in Nevada in the near future. Consequently, 
those two organizations provided very little information.
    Beyond the information voluntarily provided by the organizations, 
Nevada Attorney General Investigator Jim Freeman also compiled detailed 
information summarizing the sanctioning fees paid to the organizations 
from fighters' purses. Investigator Freeman created a chart 
illustrating that from 1996 to 2000, five selected organizations (IBF, 
WBA, WBC, WBO and USBA) sanctioned approximately 124 title bouts in 
Nevada, resulting in payment of approximately $8.85 million in fees 
from Nevada licensees to those organizations. The Nevada Athletic 
Commission hopes to use the report to better understand the sanctioning 
organizations, and therefore to better regulate the industry.
    Having gone through some of the areas that Nevada has improved upon 
over the past year or so, I would now like to offer a few suggestions 
for further improved regulation of the sport.
Recommendations
Medical
    There needs to be a central repository where fighters can send 
their medical examinations and tests. In addition to the standard 
tests, it would be very helpful if all boxers had ``baseline'' tests 
conducted before they are able to receive their first professional 
license. Such testing could track whether a fighter's physical well-
being has diminished over the course of his career; a valuable tool for 
knowing when a fighter should retire.
    The information within the repository should be maintained as 
confidential. Necessary exceptions could be made for state commissions 
to review the information in order to determine a boxer's physical and 
mental fitness, and for specifically approved legal, administrative or 
judicial proceedings.
    Such a repository would save boxers the time and money of repeating 
the same tests each time they apply for a different state's license. 
Also, the centralization of the medical information would save state 
commissions enormous time currently spent tracking down the medical 
information from fighters.
Unified Rules
    Every boxing match in the United States should be conducted under 
the same rules. Currently, the Association of Boxing Commissions has 
established Unified Championship Rules for title bouts. The consistency 
of these rules helps the fighters; assists the ring officials and 
better informs the boxing fans.
    In an effort to standardize its rules, Nevada has modified most of 
its rules to mirror those within the Unified Championship Rules. This 
is important because it's very difficult for fighters to concentrate on 
protecting themselves when they are trying to remember things like 
whether this particular state uses the ``3 knockdown rule'' or not. 
Similarly, it's quite difficult for referees to focus on the bout if 
they are constantly having to worry about the rules changing for 
different bouts. This would be the equivalent of a line judge at 
Wimbledon having to remember from match to match whether the lines are 
in or out. Finally, uniformity is also better for the live and 
television audiences, because it's hard to remember all the different 
rules the announcer goes over before each fight. For instance, some 
states still use the ``3 knockdown rule,'' but the Unified Championship 
Rules has no such provision. That difference explains why some fight 
fans still automatically think that a fight is over when one boxer goes 
down for a third time in one round.
Arbitrations
    As set forth above, the binding arbitration process that Nevada 
provides is a useful tool for expeditiously and economically resolving 
conflicts between boxers and managers. The availability of such 
alternative dispute resolution measures should be encouraged in other 
jurisdictions. The obvious caveat to such a proposal is that the 
arbitrators need to be knowledgeable about the industry and its laws. 
One way to achieve that objective would be to obtain a federal grant 
for training potential arbitrators about the process and the laws.
Sanctioning Organizations
    After reviewing all of the information compiled by the Nevada 
Attorney General's officer, Nevada's commission is contemplating two 
changes regarding how the state interacts with sanctioning 
organizations.
    First Recommendation: While the commission does not license 
sanctioning bodies, the commission does have significant authority to 
regulate championship bouts held in the state. As with non-championship 
bouts, the commission and/or its Executive Director can refuse to allow 
a championship bout if it would constitute a probable mismatch.
    Furthermore, the commission must approve all championship bouts. 
Consequently, if the commission believes that it would be detrimental 
to the sport of boxing and/or the state of Nevada, then it may deny 
such approval. In addition to a potential mismatch, grounds for such 
denial could include a sanctioning body requiring its champion to 
defend against an undeserving mandatory contender.
    However, those powers are limited to the approval and regulation of 
actual bouts. Thus, the commission is supporting Nevada Assembly Bill 
Number. 446 (AB446) which was introduced by Assembly Speaker Richard 
Perkins. If passed into law, AB446 will provide the commission with 
statutory authority to pass regulations concerning sanctioning 
organizations and broadcast television networks. In essence, the law 
would allow for ``discretionary'' registration of sanctioning bodies by 
the Nevada Athletic Commission. This course of action was necessary 
because these entities continually come into Nevada, avail themselves 
of the state's well-regulated industry, then leave the jurisdiction 
without anyone knowing exactly what role they play in furthering the 
positive aspects of the sport. If a sanctioning organization or 
television network is directed to register with the commission, the 
entity will thereafter be required to submit all requested information, 
including how the entity receives funds from a Nevada boxing event, how 
the entity is structured and to what extent the entity expends the 
collected funds on boxing related causes. The law would also permit the 
commission to pass regulations explaining what remedial measures can be 
taken against a sanctioning organization if it fails to comply with the 
reporting requirements. Such measures could include barring the 
organization from sanctioning its championship contests in the state. 
If that were to occur, the bout between the two fighters might still be 
approved to take place in Nevada; however, the commission could rule 
that the winner of the fight not be presented with the organization's 
``belt'' in the ring. Furthermore, the commission could instruct that 
the sanctioning organization not be allowed to have any representatives 
(aka ``supervisors'') receive ``credentials'' for the event. The notion 
of sanctioning organizations having numerous ``supervisors'' at fights 
has potential pitfalls for state commissions, not the least of which is 
the fact that some of the organizations sometimes forget that it is the 
governmental body regulating the event, not the private organization. 
As a result of seeing how some organizations have tried to influence 
state commissions, Nevada will be considering another possible change 
to its regulations concerning sanctioning organizations.
    Second Recommendation: Many sanctioning organizations request that 
a supervisor for the organization be sitting ringside to verify the 
compilation of the judges' scores. While it can be beneficial to have 
someone ``double check'' the math of commission personnel, too often 
more than one person from an organization comes over to see the round-
by-round results. This may create an unacceptable situation where an 
informed party (with an invested interest in the outcome of a title 
bout) could divulge the judges' scores during the course of the bout. 
Such action could cause a change in the strategy of one of the 
fighters.
    Consequently, the commission may consider a regulation requiring 
that only one representative from each involved organization be allowed 
to sit ringside and see the scores during the bout. Moreover, the name 
of the representative must be given to the commission at least 48 hours 
before the bout, and the commission may deny the request for any cause 
deemed reasonable. In the event of a denial, the organization must 
immediately submit the name of another representative. Finally, except 
for emergencies, the representative may not leave his or her ringside 
seat during the title bout, nor may he signal or otherwise inform 
anyone of the judges' scores prior to announcement of the winner.
Confidentiality Provision Within the Professional Boxing Safety Act
    There is a provision within the Muhammad Ali Boxing Reform Act, 
specifically 15 USC Sec. 6307e, which provides that promoters must 
disclose certain information to boxing commissions. However, there is a 
later provision in the act providing that if a state cannot statutorily 
protect the confidentiality of the documents submitted by promoters, 
then the promoters must submit the documents to the Association of 
Boxing Commissions. See 15 USC Sec. 6307g(b). Although certainly well-
intentioned, that particular provision has proven to be a hindrance--
not a help--to Nevada (and possibly other states). Under current Nevada 
law, the promoters' documents are not statutorily prevented from public 
inspection (or from inspection by the promoter's business competitors), 
so Nevada presumes that its licensed promoters have been submitting the 
required documents to the Association of Boxing Commissions. As a 
result, not only is Nevada barred from receiving the documents, it also 
knows that the documents are housed somewhere in another jurisdiction 
(where they are not helping regulate Nevada's industry). As a 
consequence of this law, Nevada has been forced to take a backseat to a 
voluntary organization for the past year. As part of Nevada's AB446, 
the commission is attempting to rectify the matter by creating an 
exemption to the state's public records laws. The exemption would make 
confidential ``Any information required to be disclosed to the 
commission and kept confidential pursuant to federal law.'' Nevada 
Assembly Bill 446 at Sec. 8. If passed, that revision should eliminate 
the problem for Nevada, but many other states will continue to 
experience the dilemma until the law is revised.
    In conclusion, I want to once again thank you Mr. Chairman, and all 
the members of this Committee for allowing me to represent not only 
Nevada, but all states which host boxing events, and for allowing me to 
articulate how the states and federal government can continue to work 
together to protect and effectively regulate this valuable sport.

    The Chairman. Thank you very much, Mr. Hendrick. We are 
joined by Mr. Roy Jones, Jr. We would like to hear from you, 
sir. Thank you for joining us.
    Mr. Jones. Thank you.

       STATEMENT OF ROY JONES, JR., PROFESSIONAL BOXER, 
                      C/O THE JONES HOUSE

    Mr. Jones. First, I thank you, Senator McCain and this 
Committee for passing the Muhammad Ali Reform Act. You have 
started the fight against the people who have brought our sport 
down to the level it is today. But events in recent days show 
that much more has to be done.
    Does the world really believe that the box-off among Ruiz, 
Holyfield and Rahman will determine who the true heavyweight 
champion of the world is? There are many who believe that there 
are three or four other heavyweights who could beat any of the 
three. I am at the twilight of my boxing career and most people 
know I say what I think. I would be willing to do anything to 
help you help boxing.
    I believe the way to get our sport back to the good old 
days is to provide a league concept, something like the NFL, or 
maybe baseball, NHL, etc. Every sport has a governing body. We 
have the television networks and promoters governing our sport. 
This is a problem. I don't know much about how to do this, but 
I hope this Committee will study the problem and use its 
influence to try to legitimately bring the boxing rules back to 
where they were.
    What we have today is a joke. We need some new ideas. We 
need you and the Committee to bring people together so people 
who are very knowledgeable of the sport, people who are honest 
and willing to try to save the sport that we love. Why don't we 
look at some experts in some of the other sports who also love 
and know boxing?
    In closing, I commend the work that you have done. Please 
don't stop. Use your influence to try one more time to bring 
the private sector into boxing so that the changes can be made 
without legislation. If this fails, then maybe the only other 
answer is to outlaw those contracts between boxers and those 
who now control the sport, the networks and promoters. Thank 
you for giving me this opportunity. Respectfully, Mr. Roy Jones 
Jr.
    The Chairman. Thank you, sir. Mr. Jones, who promotes your 
fights?
    Mr. Jones. I do most of my promotion myself, along with 
maybe, sometimes I use another promoter to help co-promote my 
fights.
    The Chairman. If you were not at the skill level that you 
are, do you think you could promote your own fights?
    Mr. Jones. No. I probably could not promote my own fights 
because if I were not at the skill level I am, I wouldn't be 
able to generate the money, or to get somebody to legitimately 
come--HBO, they wouldn't expect that I am a boxer. If they 
don't know you, if you are not a big fish in the sea, they are 
not going to step up and do anything for you. I as a promoter 
sit back and watch them and other networks look all around me 
and not even give me the opportunity to promote, unless I 
fought. So I know for a fact if I was not in the position that 
I am in, they would not allow that to happen.
    The Chairman. How much of a role do you think the networks 
play in this problem?
    Mr. Jones. A big role. Reason being is because they are the 
ones who go select what promoters they use. And it is like, it 
is as though they have a monopoly. The promoters have a deal 
with, at one time with Don King and Showtime against HBO.
    Then something happened. The promoter goes and establishes 
some relationship with the network. He can go get more done at 
the network than any of the fighters can because they know that 
he will be back next year with a new fighter or he will be back 
2 years from now with a new improved fighter. Whereas when a 
fighter goes he has a struggle to fight just as if he would in 
the ring.
    The Chairman. Let us talk about with the witnesses some of 
the recommendations that have been made here. I am intrigued by 
this idea of somehow taking the ABC and increasing its powers 
so that it would have national impact. I think the states would 
be very reluctant to give up their control of, or some of the 
control of boxing that they have. After all, governors appoint 
commissioners, etc. I would like to flesh out that idea a 
little bit. Does anybody have any ideas exactly how that would 
work? Mr. English?
    Mr. English. Well, this really developed from a discussion 
we were having just about a year ago this time at a seminar 
that was held by Seton Hall Law School on boxing. There is no 
question, having attended ABC conventions, that there is a 
strong element of home rule, almost to the point of 
mulishness--with all due respect, because if you listen----
    The Chairman. Because they would lose power.
    Mr. English. Well, not only that. It's--there are some 
members of the ABC who in my perception are wedded to old ways, 
whether it is because of power or because of entrenchment, 
mental entrenchment, I can't----
    The Chairman. Should we not also put this in the context 
that the majority of major boxing events take place in Nevada, 
New York, or New Jersey?
    Mr. English. California and Texas.
    The Chairman. So we have 50 states that have equal 
representation, right, Greg?
    Mr. Sirb. Correct.
    The Chairman. But the overwhelming majority of boxing 
events certainly as far as revenue is concerned take place in a 
handful--or on one hand--of states.
    Mr. English. Well, we say that, but--let's just analyze 
that for a half a moment. It happens that New Jersey is going 
through a dry period the last two years.
    The Chairman. Other witnesses, jump, respond on this. Go 
ahead.
    Mr. English. It happens that New Jersey has been going 
through a dry period the last few years. A couple of years ago, 
Nevada did. Michigan, for some reason, and I will go on record 
as saying I think that that commission was among the worst I 
have ever seen in my life, has right now a fair number of 
boxing matches. I don't know how you apportion power based upon 
that, with the fluctuations that occur.
    The Chairman. So what do you do? You have the ABC appoint 
or elect a select group of----
    Mr. English. One thing that the ABC has been managing to do 
the last--frankly the last four, eight years anyway, I am not 
familiar before that--because it was such a weak organization, 
they managed to elect very good leadership, and I am not simply 
saying that because Greg Sirb is here on the panel with me. 
Between Marc Ratner, Greg Sirb and, while he sometimes causes 
friction, Larry Hazard, these are very, very capable people.
    And so long as that type of person is in the leadership 
position, if the ABC has some clout to uniformly enforce 
certain things across state boundaries--which it doesn't have 
right now, it can recommend, it can do a lot, but it really 
can't say to the folks in, say, Louisiana, you know, you really 
have to do look at the suspension list, and sort of be guided 
by that.
    I mean, I know that is part of the federal law, but it 
doesn't happen. We know that it doesn't happen. We know that 
sometimes boxers fight when they are on the suspension list in 
the lower level club fights.
    So as long as there is no body with the money, the 
willingness to tackle some of the investigations that needs to 
be done.
    The Chairman. The authority.
    Mr. English. The authority.
    Mr. Goossen. Senator, what I would like to add to that is 
this. And again, it almost boils down to having that--not 
almost, it boils down to having that authority.
    If a certain state, and I don't care if it is one of the 
big ones that host 60 percent of the fights or one of the 
smaller ones that does 15 fights a year, if one of the states 
do not adhere or join the ABC, then it would take the people in 
the industry such as the promoter, such as the television 
network, not to promote fights in the areas, the states that do 
not abide by the rules and regulations of the ABC.
    It is the only way that you can force the states, if they 
do not belong to the ABC, if they do not follow their rules, 
and not violate their own state policies, then the promoters 
and the networks would not be able to promote in that state. I 
think that would be certainly enough motivation for those 
states to join an ABC.
    The second situation that we would have to do in 
conjunction with that is obviously find a way to fund the ABC. 
Again, you have got certain situations with states that 
certainly wouldn't want to give up any of their revenue. 
However, whatever it would take again, Senator, to get an 
overseer of our industry is what we are willing to do as a 
promoter. I speak on our behalf.
    The Chairman. In the context of your answer, what about a 
commissioner?
    Dr. Homansky. Well, I was at the first ABC meeting 14 years 
ago. It was totally ineffectual until you all's involvement, in 
my opinion, of leading us to the next step. Can it be the right 
framework? I truly believe it can. The states can work through 
the framework of the ABC.
    And my example of that would be the NCAA. The NCAA is a 
voluntary organization that people join. You don't join, you 
are not a member, you don't get to fight--you don't get to 
compete in those championships. But that is a framework.
    The Chairman. And that would come out of the ABC?
    Dr. Homansky. That would come out of the ABC. The ABC with 
the state commissions is the right framework to go forward. The 
government can look at certain aspects of this and give 
direction. But this sport will be able to regulate itself or it 
will not be able to survive.
    The Chairman. Mr. Hendrick, do you want to comment?
    Mr. Hendrick. Thank you, Senator. I was just going to 
follow up on your comment that with all due respect to the ABC 
and its current form and its current leadership, I would be a 
little bit concerned about majority rule, where it is 
universally recognized that Nevada is the boxing capital of the 
world, and I would be somewhat concerned if a majority rule of 
states that are only putting on one or two fights a year were 
to tell Nevada how to properly do something.
    So from that standpoint, I am a little concerned about an 
overriding Committee where there isn't some kind of 
representation based on who is doing the yeoman's work. And I 
say that not because I come from Nevada, but because if you 
stand in the batter's box enough, you are going to hit a curve 
ball because you see enough curve balls. Nevada, our 
commissioners, our executive director, Marc Ratner, they see 
curve balls every day. Thus, they are not going to have one 
slip by them. But a majority rule would concern me if we 
couldn't have a little bit of say-so, because we are seeing 
those curve balls every day.
    The Chairman. In other words, some are more equal than 
others, like senators. But I think the other point, too, 
another added wrinkle, of course, is the Indian tribes, who are 
sovereign nations and therefore, you would have to somehow make 
sure that they are part of this as well.
    Before you came in, Mr. Jones, there was a recommendation 
for ``binding arbitration.'' As a fighter, would you feel 
comfortable if you have a dispute over money that it go to an 
individual who would make a decision? In other words, you can 
either go to court or as in baseball, a procedure for a binding 
arbitration would exist. But I would like to remind you that in 
baseball, the arbiter does not have a range of choices. He has 
two choices. One, the player's position, and two, the 
management position. Would you feel comfortable with that kind 
of situation?
    Mr. Jones. Probably. It is according to, probably, who that 
person is or what that person is. I would have to see where 
that person's background came from, do I believe he is in the 
right position to make a fair decision to me. If he is, then of 
course. If everybody has to abide by this, then I am going to 
abide by it because that is the way everybody should do it. And 
that is the type of steps that we have to have in boxing, so 
that people can see and everybody can follow suit. If this is 
the way you are going to do it, this is the way you have to do 
it.
    So everything is, I feel with the IBF, the WBA and the WBC 
where everybody came down to the IBF because it is right here 
in the United States, but nobody said nothing about the WBC and 
WBA, because they are out of the country. That is not fair to 
me. Although what they were doing was wrong--don't get me 
wrong--but everybody don't have to abide by the same rules. We 
can't go get into the offices like we can in the IBF.
    So if it is the same and everybody has to abide by it, I am 
always going to abide by it. And I am always going to be for 
that, because I feel like that would help everybody else.
    The Chairman. You are a role model to millions of young 
Americans. How do you feel when you read that promoters are 
giving people duffle bags full of cash in order to get them to 
break agreements with other promoters?
    Mr. Jones. That is the problem. That is part of the problem 
that we have in boxing. That is part of what has brought boxing 
to where it is today. And it is a horrible feeling to me 
because it makes the fighter look bad, it makes the promoter--
it makes the business look just like everybody perceives it to 
be. I am a person who has been able to get a deal with Nike, I 
had a deal with brand Jordan, but none of these people wanted 
to deal with me after they found out that I did not have a 
promoter. That I was by myself.
    The Chairman. But as you said, you are one of the few 
boxers in America that could be your own promoter.
    Mr. Jones. Well, because of the way the promoters can give 
you a bag full of money and make guys--influence guys to do 
things like that. That is one of the problems, because they are 
able to come by and do that and make him sign and do whatever. 
Now he is committed to that guy for however long it is, because 
of that one little bag of money. And it is like, to me, I think 
that is unfair, and I think something should be done to the 
promoters for doing that. But nothing happens so they 
continuously do it.
    The Chairman. Well, if the witnesses will indulge me for a 
moment in my old age. I have observed recently some terrible 
decisions, and one of them being a fight that took place in San 
Antonio where a fighter from Mexico City clearly won the fight. 
Again, I believe that it was against Ayala, because Ayala had a 
big fight already contracted that was coming up. The announcer 
on television said, ``Follow the money, follow the money.'' 
That is why this decision was rendered.
    What are you going to--I guess I am directing my comments 
primarily to Greg, and anybody else who wants to comment, when 
fights are obviously, obviously misjudged? I guess that is the 
right terminology. And one of the reasons why I was so upset 
about this fighter from Mexico City, because he did not get the 
decision, he may fade into obscurity. He may never have another 
fight that would be televised nationwide again.
    What in the world can be done about--I am not talking about 
differences of view. I am talking about blatant, blatant 
miscalls of a fight?
    Mr. Sirb. Well, I have to agree with you in that case. And 
there is obviously more than those cases that have come up over 
the years. One of the things that any national body, and I 
stick with national, not federal body--but any national body 
needs to have, and that's the training of the officials. Like 
major league baseball, you have to be go to school, you have to 
be trained, you have to come up through the ranks to reach a 
major league baseball type level.
    The Chairman. How are they selected in Nevada?
    Dr. Homansky. We select them. We have input, but no 
official is chosen outside the state of Nevada. The ultimate 
authority, the ultimate decision is the referees and the judges 
are chosen by us. That does not happen everywhere.
    The Chairman. Are you sure? I have seen these fights where 
they call in somebody from a foreign country because the 
promoter demands that country be represented. Or that America 
not be represented.
    Dr. Homansky. There is no question. It is an international 
sport and we do at times use international officials. But it is 
our choice on the officials that we have observed.
    The Chairman. Without pressure from the promoters?
    Dr. Homansky. Without pressure.
    Mr. Goossen. Senator, that pressure usually comes from the 
organization, that they want one of their international 
officials to be a part of it. I think Greg hit the nail on the 
head. Obviously that is also another big undertaking, but one 
that is sorely needed. And I think that to go beyond that, if 
you look at any of the other major sports--football, 
basketball--if you have got someone that consistently blows the 
call, he is not going to be reffing any more football games or 
basketball games. We don't have that procedure in our industry, 
where again too many states are going to penalize the 
incompetence of certain judges.
    That is what we need to get rid of. It gives the taste of 
what you have just said with the announcer: ``Go follow the 
money.'' Unfortunately, in other sports, if a referee blows a 
call, there is no tinge of unethical practices there. It is 
just the ump is blind. In our sport, it automatically jumps 
out: Who paid this guy off?
    So that is what we have got to get rid of. And the only way 
we are going to get rid of it is through a national commission, 
through a body that governs our sport and then has the ability 
to penalize people--again any licensee, whoever does not stand 
up to the rules and regulations.
    The Chairman. I do not want to spend too much time on the 
issue, but it is just terrible when you see a young fighter 
fight his heart out.
    Mr. Goossen. You are right.
    The Chairman. And then be the victim of a bad decision.
    Mr. Goossen. And it is what you said again, Senator. He may 
go into obscurity, but worse yet he might end up fighting for a 
lot less than what he made for this fight, and still never get 
a fair decision because now he's labeled a loser.
    Mr. Sirb. One of the things to follow up on. I know we gave 
you some of the copies, the first time we gave you a world 
judge's report. With the help of some statistics that we have 
gathered that I know we share with all the states, every world 
judge, each round that they have scored for the past 4 years, 
and shows them side by side. So there are some judges over 
there that each commission now knows should not be judging. 
They are horribly outside the average score.
    The Chairman. Would you be guided by that, sir?
    Dr. Homansky. Yes, sir. Thre is no question we also look at 
objective data. And here are officials that come into the state 
of Nevada that have had too many even rounds, that their scores 
do not make sense. We do keep records of that. There is 
communication between our executive director, Marc Ratner and 
Greg, and we do not use those officials again.
    The Chairman. Greg, I would like to have the ABC come up 
with a recommendation along the lines of the NCAA, so that we 
can get some kind of national oversight, perhaps without the 
appointment of a boxing commissioner or a boxing czar, etc. I 
am always uncomfortable with, well, also from a political 
standpoint, it would be very difficult to override the 
objections of most governors if we took away the authority. But 
if we had some kind of concept where, following along the lines 
of the NCAA, where there could be oversight enforcement that 
would cross state lines. And I would be glad to try to turn 
that into some kind of legislation.
    Mr. Sirb. One of the things, besides the NCAA, one of the 
things I follow closely because I handle athletic agents' 
issues, is the Amateur Sports Act that Senator Stevens did, and 
I thought he did a wonderful job on it. It is basically gives 
authority for amateur boxing to a private organization, 
Colorado Springs, USAA Boxing that runs amateur boxing through 
state lines. I think the legislation can be patterned after the 
Amateur Sports Act.
    Just to get one thing that Kirk said that I know that has 
been a problem in our association about how we share the wealth 
of the votes. At meetings when I am with the athletic agents, I 
mean, I deal with the Yankees on one hand, who rake in millions 
upon millions of dollars, but when they go to the table, the 
Pittsburgh Pirates, one of my beloved teams in one of my 
states, who rake in maybe one-tenth of what they do, still has 
one vote. And the Yankees have to follow, once the Pirates have 
their vote, if they get beat, they have to follow it. It is 
sort of similar to what we have here.
    There are eight states, and these are statistics. On the 
West Coast you have Nevada, California, and Texas. They do 
probably 80 percent of the fights over on the West Coast. On 
the East Coast over the past 5 years a number of fights, you 
have New York, Pennsylvania, and Florida doing the fights. The 
large number of fights. So if you put those, six states 
together, you have probably got about 60 or 65 percent of the 
fights occurring in six states. But just like NCAA, the Indiana 
basketball teams has got to do the same thing that Fairfield 
University has to do. It just has just got to be a compromise 
that has to be worked out.
    The Chairman. There is no disagreement among the witnesses 
that we need a medical registry or repository system such as 
Dr. Homansky has recommended? There is no disagreement on that? 
You might want to do that separately so that we could get that 
done.
    And you suggest a sanctioning fee as being the means of 
funding that?
    Dr. Homansky. I throw that out to you as a rough estimate 
in America of 4 to 5 million dollars in sanctioning fees, 10 
percent of that to fund this. And I think the world body should 
be happy to do this for the fighters.
    The Chairman. Mr. Jones, let us talk just for a second 
about sanctioning fees. Do you pay those?
    Mr. Jones. Yes, I do.
    The Chairman. Do you think you should?
    Mr. Jones. No, sir. I don't.
    The Chairman. What kind of range are you talking for a 
major fight?
    Mr. Jones. I have seen it go up as high as around, once I 
paid close to $500,000 in sanctioning fees.
    The Chairman. Which meant someone's signature on a piece of 
paper.
    Mr. Jones. Yes.
    The Chairman. What do you do about that?
    Mr. Sirb. Again, if we registered the sanctioning bodies, 
if the ABC in the law registered the sanctioning bodies, we 
would set those fees. Those fees would have to be set and they 
could not go against it.
    That is outrageous. I have a fighter that I know well, 
again, Nate Miller, who was the reigning cruiserweight champion 
of the world for like 18 years, we added up all the figures 
that he paid. For his belt he ended up paying like over a 
million dollars for a belt that we priced out at under $475.
    The Chairman. And they are ugly besides.
    [Laughter.]
    Dr. Homansky. Senator McCain, I have to take a little 
opposing view here. Roy could have said no. Roy is big enough 
that he could have said no, and the only reason I bring that up 
is because he didn't. And I am not going to speak for him or 
for other people, but the belts still do mean something. They 
mean history.
    The Chairman. This was my next question. Roy, does it 
matter to you whether you are the WBO, IBF, WBC, WBA, any other 
alphabet soup champion, or you are recognized by USA Today in 
their rankings and throughout America as the best fighter in 
the world, pound for pound?
    Mr. Jones. Right now the alphabet order doesn't really 
matter to me. But if I don't have a championship belt around my 
waist, then I am competing for nothing. Because always as a 
child coming up you want to be a world champion. That was my 
goal when I turned professional. And it's like, people put 
their pressure on you, and yeah, you could have said no but how 
many of us are going to say no?
    The Chairman. What does it mean if you are in the WBO?
    Mr. Jones. Right now it don't mean nothing to me because I 
know what I truly am. But in boxing if you aren't in the WBC or 
the WBA or the IBF, you are nobody. And that's the ultimate 
thing. If you have just those three titles, you're considered 
undisputed champion of the world.
    Mr. Goossen. Senator, the way we fix it is having this 
ruling body, the organizations have to live within those rules 
and regulations. The ABC has taken steps in that regard with 
ratings criteria. Some of the organizations have followed 
through on it, some have ignored it. They have got to be, they 
have got to be standards set there. As Roy said, and I have 
seen it every day, fighters, and you know, it's funny, the best 
example we have, the HBO for years have vilified the 
organizations and said we don't need them. It is the fighters. 
And quite honestly, they are correct. But yet, they are 
fighting, they went from $3.5 million, they were supposed to 
pay Hasim Rahman to fight Lennox Lewis for close to $20 million 
because they didn't want to lose the title.
    That was the bottom line. They wanted those titles. So they 
are a valuable asset, the fighters, the networks, the 
promoters, but not valuable enough where they extort money from 
fighters, extort moneys from promoters, and/or not follow the 
rules and regulations as dictated by our commission that we 
should have that oversees our industry.
    The Chairman. Go ahead, Mr. Jones. And comment on whether 
you think this is a good thing that has been going on, this box 
off for the title that is going to end up some day with you and 
Mr. Trinidad fighting.
    Mr. Sirb. You mean Mr. Hopkins from Philadelphia.
    The Chairman. Yeah, Hopkins, excuse me. If Mr. Trinidad 
beats Hopkins, excuse me.
    Mr. Jones. I agree with what Mr. Goosen said. And I think 
that box-off could be helpful in a sense because those guys are 
guys who really don't have big names with the exception of 
Trinidad. So that brought Jaffe, that brought Keith Holmes 
tribute that they may have never received, so always it is not 
a bad situation when you look at it and it is beneficial to 
more than one fighter.
    Now at the end of the roller coaster it is going to be 
beneficial to me and the winner of the Trinidad-Hopkins fight. 
So by building that hype, that is the type of promotions that I 
think is supposed to take place. People don't realize that at 
the end of the road, Don King could get ridiculous and the 
fight could never take place. And that is what's bad about it. 
Because in this sport, nobody can go in and say, Well, Don, you 
are only allowed this much, the fighters should get the lion's 
share of the money, and the fight should happen. Because in 
that instance, I would say no. But with the title issue is like 
they are using my pride, my motivation to keep me going against 
me. And when you say you are going to pay this or give my title 
up, no, I don't want to give my title up. Networks say we don't 
care about the titles, give the rights up yet the first thing 
they ask you is, is this a title bout? Tomorrow you tell me the 
reason you took this fight or the reason you paid this guy so 
much as opposed to that guy is because it was a title fight. I 
can't get my titles like that.
    The Chairman. Another great fan of boxing and one of the 
members of this Committee who has been extremely helpful to us 
in passing legislation we have in the past, and a friend of 
Virgil Hill's, is Senator Dorgan.
    Mr. Jones. I didn't mean to hit him.
    Senator Dorgan. Mr. Chairman, I am not very happy with Mr. 
Jones.
    [Laughter.]
    Mr. Jones. I didn't mean to hit him, he actually ran into 
it.
    [Laughter.]
    [The prepared statement of Mr. Jones follows:]

       Prepared Statement of Roy Jones, Jr., Professional Boxer, 
                          c/o the Jones House
    I want to thank Senator McCain and this Committee for passing the 
Muhammad Ali Boxing Reform Act. You have started the fight against the 
people who have brought our sport down to the level it is today. But 
events in recent days show that much more has to be done.
    Does the world really believe that the Box-Off among Ruiz, 
Holifield, and Rahman will determine the true heavyweight champion of 
the world? There are many who believe that there are three or four 
heavyweights in the world who could beat any of the three.
    I am at the twighlight of my career and as most boxing people 
realize I say what I think. I would be willing to do anything to help 
you help boxing.
    I believe the way to get our sport back to the ``good old days'' is 
to provide a league concept--something like the NFL, NBA, MLB, NHL, 
etc. Every sport has a governing body. We have the television networks 
and the promoters governing our sport. This is the problem.
    I don't know how to do this, but I hope this Committee will study 
the problem and use its influence to try and get a legitimate boxing 
ruling body that will control the sport. What we have today is a joke!
    We need some new ideas. We need you as a Committee to bring 
together some people who are very knowledgeable of the sport! People 
who are honest and are willing to try to save the sport which I love. 
Why don't we look to some of the experts in other sports who also have 
a love and knowledge of boxing?
    In closing, I commend the work you have done. Please do not stop. 
Use your influence to try one more time to bring the private sector 
into boxing so that the changes can be made without legislation. If 
this fails, then maybe the only answer is for you to outlaw those 
contracts between the boxers and those that now control the sport . . . 
the networks and the promoters.
    Thank you for giving me this opportunity.
        Respectfully submitted,
                                             Roy Jones, Jr.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Jones, welcome and welcome to the rest 
of you. I am really pleased that Senator McCain has taken such 
an interest as Chairman of this Committee over a number of 
years on this subject. And we have made progress. I think the 
Muhammad Ali Act is progress. That credit goes to Senator 
McCain.
    I was thinking as I was sitting here in the mid 1980s, when 
I was a member of the House of Representatives, Bill 
Richardson, Pat Williams, myself and others, and Senator McCain 
were interested in boxing and even back then we talked about 
trying to get some legislation. The fact is we never could. And 
it was kind of the same argument that I am hearing here today. 
Well, gosh, you cannot do anything that hinges on Las Vegas 
because we handle most of the fights and we know how to do it 
and, you know, we do not want somebody else telling us what to 
do.
    We have made some progress in some areas and I think that 
is good. But I recall sitting over in a hearing that another 
chairman held in which Sammy the Bull Gravano came under guard 
to the hearing, and this is I think 4, 5, or 6 years ago, and 
he described flying to Las Vegas to one of the boxing 
organization representatives and meeting him and saying he was 
trying to set up a fight with Rinaldo Snipes, that they had a 
fighter that was going to fight Snipes. Snipes had fallen out 
of the top 10 and they really needed him to be in the top 10 to 
make this a fight that they could springboard from.
    So the guy said, well, we could, you know, put him in at 
number seven for $10,000. And he, Sammy the Bull Gravano told 
us in testimony, he said I explained to him that he was asking 
on behalf of John Gotti. He said well, in that case we could 
rank him number seven for $5,000. And so goes too much of 
boxing, not all of boxing, but too much of boxing.
    I think it was Mr. Sirb or Mr. Homansky who said the 
pressure--when Senator McCain asked about judges--the pressure 
comes from organizations. Maybe so. But you know, and I know, 
that there are some organizations that have a substantial 
connection to certain promoters. I mean, I was just involved 
with an organization here over the last couple of years about a 
fighter who was not getting the fight he was supposed to get by 
contract and by the organization's rules. And what I discovered 
was well, some promoters are able to go to organizations 
because they have a very close relationship and jockey around 
and get exemptions, and this, that, and the other thing.
    My guess is the same thing happens with respect to 
officials at a fight. It might be coming from an organization, 
but it might be coming from then promoter to the organization, 
then on to the body. So I think that is also something that 
happens too often.
    Let me just say that my own view is that we need an 
organization with some muscle, and that is the only way it is 
going to work. Every other professional sport has it. There are 
different iterations of it. Some have no connection with 
government, some do. But if you do not have a commissioner with 
some clout, if you do not have the capability to establish some 
standardization of rules and safety, it is not going to work. 
And it seems to me you have got to have something that helps--
from these gate receipts--accumulate some money, so that at the 
end of the fighter's career, the fighter is not thrown away 
penniless, that there is something available at the end of that 
career for those fighters as well. They provide wonderful 
sport.
    And I grew up, Mr. Chairman, as a young boy in southwestern 
North Dakota. I mean, never saw a fight but I was listening to 
the Pabst Blue Ribbon fights on the radio. My grandad got me a 
copy of Ring Magazine--he got me a subscription to Ring 
Magazine, not Fleischer. And I listened to Kid Gavilan and 
Sugar Ray and Archie Moore and Ike Williams. I grew up knowing 
fighters. So there was only, you know, there is one heavyweight 
champion and one light heavyweight champion.
    The Chairman. And eight divisions.
    Senator Dorgan. Yeah. And now we have got this 
proliferation. And in many ways, boxing is a wonderful sport 
and in many ways, it is a pretty shabby, tawdry situation as 
well. So, I did not mean to give a speech here. Let me thank 
Roy Jones for being here. As I said, I got involved in helping 
Virgil Hill earlier in his career when he was not invited to 
the Olympic trials. And I called them and said this boy is from 
North Dakota, you do not know him but it does not hurt you to 
invite him to trials. And he went on and won the trials in the 
Midwest and went on to win a Silver Medal in the Olympics. He 
is a wonderful young man. And you ought to fight him two, three 
more times and see what happens.
    [Laughter.]
    In any event, I am delighted you are here, and I think you 
are a real role model in boxing and I think your willingness to 
come and testify in open hearings about all of these things 
requires a great deal of courage, but I think I will also pave 
the way for changes Senator McCain wants to make, and I and 
others want to make that will improve the sport of boxing.
    Mr. Jones. Thank you so much. And one thing I want to add, 
when you say a committee with muscle, they also should have the 
right to be able to go back and look at fights that were badly 
judged and overrule. Because I felt just as bad, when you were 
saying that, I have been one of the biggest victims of a bad 
decision in my life, but that decision didn't hurt me. It 
actually helped me catapult myself and it gave me more 
fighting. But I don't like to call names, but when I watched 
Gutierrez Espadas fight Eric Morales----
    Senator Dorgan. Right.
    Mr. Jones.--and to see them just take Gutierrez's Espadas's 
title because they thought Nasseem Hamed was going to be the 
one they were fighting with, that bothered me. I sat there with 
tears in my eye wondering, how is it in this country they can 
just do, and when nobody does anything about it? That can 
happen to me. That could happen to my kid one day. And that is 
why I think something should be done.
    Senator Dorgan. Just one other question. Is there some risk 
to you being here, any of you? I mean, boxing is a really 
interesting sport in terms of control these days. You know what 
I am talking about. You get frozen out very quickly, very 
easily, and now we have got a couple of other interests that 
probably cannot be frozen out, but are some of you--do you feel 
a little pressure coming to testify today?
    Mr. Goossen. Senator, I would just tell you on my behalf 
that there is not enough money in the world not to have me 
sitting here. Any threats of expulsion from boxing that would 
allow me not to be here. Because I was just thinking in my mind 
when I heard Senator McCain mention to Greg to start planning, 
seeing how this can be enacted--this is what we need. I don't 
care, the only people that wouldn't want us here are the ones 
that would have to follow these rules and regulations that we 
finally get into place.
    So damn them, and this is what we have got to do. And I 
know this is the first day of establishing a national 
commission for industry and making it something that I am going 
to be very proud of.
    Mr. English. Senator, I think that the risk, to the extent 
that there is risk, really lies most with Roy Jones, Jr., who I 
think we should all be proud of for being here today. In terms 
of the promotional company that I represent, Main Events, that 
decision was made a long time ago.
    As an example, Main Events supported Michael Moorer in a 
suit against the IBF that ultimately led to the disclosures of 
bribery, indictments and what have you. We did not go into that 
unknowing. We knew what the consequences would be. We didn't 
know it was going to be dragged out as long over so many years. 
But there is a decision you don't sell out the boxers that are 
associated with you. And for years after that, many years after 
that, it happened that the Main Events boxers were not ranked 
highly by the IBF as a direct retribution for having made those 
disclosures which ultimately led to the indictments and the 
convictions.
    Yeah, there is some risk, in that sense. But forget the 
promotion company; the risk really lies to boxers like Roy 
Jones. I think he should be commended for being here.
    The Chairman. Mr. Hendrick?
    Mr. Hendrick. Senator, I just want to say as well that I am 
in a unique position because I left the government so I have no 
allegiance to any political aspirations at this point. And I 
have just started in private practice, and I have always 
believed that there should be no fear of ever doing the right 
thing and I have no fear of that. If my career doesn't take on 
any of this industry, I'll be just fine. But I also want to 
echo the fact that Mr. Jones is in a very precarious position. 
For him to come out and publicly say the things that he has 
said, not only to this commission, but constantly saying in 
order to improve this sport, says a lot more about him as a man 
than it does as a boxer. And I congratulate him on that.
    The Chairman. Thank you.
    Dr. Homansky. The risk is really with the fighter. That is 
what we have to remember here. The tawdriness, the problems 
that have come up, the issues that we are trying to face are 
worthwhile. It is worthwhile because of the risks that kids 
themselves undertake when they go into this wonderful sport.
    For all of the issues we have been talking about this 
morning, for the time that we have put into it, we do it 
because these men and women fight their hearts out in the 
ultimate competition, and that is where the risk is and that is 
why this is worthwhile.
    Senator Dorgan. Mr. Chairman, if I might just as a final 
comment say, Muhammad Ali was always one of my favorite 
fighters, a wonderful fighter obviously. But I also liked as a 
very, very young man Ezzard Charles who ended up in desperate 
poverty shining shoes, I believe, at the Fontainebleau Hotel in 
Florida after he had been a wonderful heavyweight champion.
    And my hope is that you will accept the Chairman's 
challenge to submit some information for your ideas on 
structure and so on. I commit, as I am sure some of my 
colleagues will, to working with Senator McCain. We need to 
continue to make advances here and continue to address these 
problems and I really appreciate your willingness.
    And Mr. Jones, thanks for your courage and your willingness 
to be here today as well. You are a wonderful fighter and I 
have watched many of your fights, and I wish you well.
    The Chairman. I would just like to say that one of the 
areas that we did not cover that we have talked about a lot in 
the past is the issue of pensions, and I would like your inputs 
as far as that is concerned as well. Obviously it has to come 
out of pay-per-view, at least that is where the money is. And 
we have to set up criteria for eligibility. But even if we set 
up an organization, modeled along the lines of the NCAA for the 
oversight of boxing, we still have not addressed the pension 
issue, and I would hope that we could attempt to make some 
progress in that area.
    And I just briefly, I would like to hear any real quick 
views that you have.
    But before you do, Mr. Jones, I also want to applaud you. 
And I want to say that for whatever it is worth, a lot of us 
will be trying to pay a lot of attention and focus a lot of 
attention on what happens after the Trinidad-Hopkins fight as 
far as you're being able to have a reasonable contract for 
fighting the winner of that fight. And I hope that you 
understand that there will be a lot of us that will be trying 
to pay attention to what goes on in that situation, not because 
of our affection for you, but also our respect for you, and the 
fact that Americans deserve an opportunity to see what may be 
one of the great matches of the century.
    Mr. Jones. Thank you.
    The Chairman. Pensions, real quick. Flip?
    Dr. Homansky. Got to happen. And it can happen. And there 
is no question in my mind that the money is there. No question. 
And it doesn't have to come just out of one source, but it is 
got to benefit all of the fighters, especially the club 
fighters.
    The Chairman. Greg?
    Mr. Sirb. It is started. And we've got the beginning stages 
of it with the foundations that we started with. But the 
pension system, the difficult part is there is no union for the 
boxers, and so it makes it a little bit different when I try to 
pattern the pension system sort of on major league baseball. 
But pay-per-view on a little piece of every little fight, even 
a small club fight, make it a small part of that club fight 
going into a centralized funding area, where we have already 
set the parameters up through, the National Association of 
Attorney Generals I thought did a good job on that. And each 
fighter hitting that parameter after 40 having so many fights, 
getting their share back.
    The Chairman. Get with the National Association of 
Attorneys General, get the ABC to give us a proposal that we 
can turn into some kind of legislation, okay? So you have got 
two tasks, all right?
    Mr. Sirb. No problem.
    The Chairman. Mr. Goosen, do you have anything?
    Mr. Goossen. Senator, your dream has always been to protect 
the fighter, and that dream cannot be realized without the 
final touch of a pension for the ones that aren't as fortunate 
as Roy Jones and a handful of other fighters. It is, we have 
talked about it with the opponent that Ayala fought. Most 
fighters, and it is a shame that there is not more money 
generated at the lower levels of our industry, but it is a 
shame of what some of these fighters that are fighting four-
round, six-round, eight-round fights, are making.
    In our industry it is very cash-poor at the bottom. It is 
feast or famine. And the only way that we are going to rectify 
that is to be able to have some type of pension for the 
fighters that don't have the ability, but still give the fans, 
give the promoters, give the networks what we are all looking 
for, and that is a good athletic contest.
    The Chairman. Thank you. Mr. English?
    Mr. English. I think it is an extraordinarily complex 
problem. I think it is, I think we all support some sort of a 
pension plan for boxers. However, we know that there are a 
couple of models which have failed. The California pension plan 
system collapsed. The IBF pension plan system, as far as I am 
aware, works for a couple of boxers, but only a couple of 
boxers. It only works at the championship level.
    I have looked, again, I was a member of the NAG group so I 
looked very closely at the proposals that came out, the 
actuarial tables. It would be nice for me to sit here and say 
yes, Senator McCain, we could do that. I am not sure we can. I 
hope we can. But I think a lot more work can be done.
    The Chairman. Do you think they could if they had a union?
    Mr. English. I think you could if you had a national 
system. You certainly can't do it on only a title bout basis, 
as the IBF is trying to do. You can't do it on a state by state 
basis because fighters naturally migrate from state to state 
where the action is.
    The Chairman. I understand. I agree. Mr. Hendrick?
    Mr. Hendrick. Thank you, Senator. I was just going to echo 
the comments that it is a difficult problem, but it is one that 
I commit my resources in the state of Nevada to trying to 
achieve. And again I want to thank you for taking your time on 
such a day that is so important to this country, and what you 
have to be doing for the rest of your day, to take a few 
moments to help this sport.
    The Chairman. It is my honor. I thank you all for coming. 
And I would like to have those two issues addressed by the ABC. 
And how soon do you think, Greg, you could put that together?
    Mr. Sirb. I think we can put that together in weeks. I 
don't think it should take us a very long time. We have a draft 
in front of us that we have tried to put together.
    The Chairman. I'd like to introduce legislation this 
summer.
    Mr. Sirb. It will be there.
    The Chairman. I want to thank all of you for being here. I 
appreciate your dedication and efforts to the ``sweet science'' 
or the ``red light district of sports,'' whichever philosopher 
you happen to agree with. Thank you very much. This hearing is 
adjourned.
    [Whereupon, at 11:02 a.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
